<html>
<title> - CONVEYANCE OF LAND IN CLARK COUNTY, NV; WILDLAND FIRE SAFETY; EXCHANGE OF LAND WITHIN SIERRA NATIONAL FOREST; AMEND THE ORGANIC ACT OF GUAM; AND FEDERAL LANDS IN RIVERSIDE COUNTY, CA</title>
<body><pre>[Senate Hearing 108-748]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-748

CONVEYANCE OF LAND IN CLARK COUNTY, NV; WILDLAND FIRE SAFETY; EXCHANGE 
 OF LAND WITHIN SIERRA NATIONAL FOREST; AMEND THE ORGANIC ACT OF GUAM; 
               AND FEDERAL LANDS IN RIVERSIDE COUNTY, CA

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION
                                     

            S. 2378                               S. 2410

            H.R. 1651                             H.R. 3874

            H.R. 4170                             S. RES. 387




                               __________

                           SEPTEMBER 29, 2004





                       Printed for the use of the
               Committee on Energy and Natural Resources

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
97-902 PDF                WASHINGTON : 2005
______________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
DON NICKLES, Oklahoma                JEFF BINGAMAN, New Mexico
LARRY E. CRAIG, Idaho                DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LAMAR ALEXANDER, Tennessee           RON WYDEN, Oregon
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
JAMES M. TALENT, Missouri            MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana                EVAN BAYH, Indiana
GORDON SMITH, Oregon                 DIANNE FEINSTEIN, California
JIM BUNNING, Kentucky                CHARLES E. SCHUMER, New York
JON KYL, Arizona                     MARIA CANTWELL, Washington

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                    LARRY E. CRAIG, Idaho, Chairman
                CONRAD R. BURNS, Montana, Vice Chairman
GORDON SMITH, Oregon                 RON WYDEN, Oregon
JON KYL, Arizona                     DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LAMAR ALEXANDER, Tennessee           TIM JOHNSON, South Dakota
LISA MURKOWSKI, Alaska               MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            EVAN BAYH, Indiana
                                     DIANNE FEINSTEIN, California

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                 Dick Bouts, Professional Staff Member
                David Brooks, Democratic Senior Counsel




                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bordallo, Hon. Madeleine Z., Delegate from Guam in the U.S. House 
  of Representatives.............................................     6
Cameron, Scott, Deputy Assistant Secretary for Performance and 
  Management, Department of the Interior.........................    14
Cantwell, Hon. Maria, U.S. Senator From Washington...............     2
Craig, Hon. Larry E., U.S. Senator From Idaho....................     1
Pyron, Christopher, Deputy Chief for Business Operations, Forest 
  Service, Department of Agriculture.............................     9
Reid, Hon. Harry, U.S. Senator From Nevada.......................     2

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    29

                              Appendix II

Additional material submitted for the record.....................    35

 
CONVEYANCE OF LAND IN CLARK COUNTY, NV; WILDLAND FIRE SAFETY; EXCHANGE 
 OF LAND WITHIN SIERRA NATIONAL FOREST; AMEND THE ORGANIC ACT OF GUAM; 
               AND FEDERAL LANDS IN RIVERSIDE COUNTY, CA

                              ----------                              


                     WEDNESDAY, SEPTEMBER 29, 2004

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:55 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Larry E. 
Craig presiding.

           OPENING STATEMENT OF HON. LARRY E. CRAIG, 
                    U.S. SENATOR FROM IDAHO

    Senator Craig. The Subcommittee on Public Lands and Forests 
will convene. I apologize for running late. We had a couple of 
extended votes on the floor.
    In bringing this hearing to order, I want to especially 
thank Congresswoman Bordallo who represents the island of Guam 
and is here to offer a statement on H.R. 2400, a bill to amend 
the Organic Act of Guam for purposes of clarifying the local 
judicial structure of Guam. I see she is joined by Governor 
Moylan, or Lieutenant Governor Moylan. Welcome. We appreciate 
you being here also.
    I would also like to welcome Christopher Pyron, Deputy 
Chief of Business Operations, the U.S. Forest Service, and 
Scott Cameron, Deputy Assistant Secretary for Performance and 
Management at the Department of the Interior. Welcome, both of 
you. They are here to testify on the following legislation:
    Senator Harry Reid and Senator Ensign's S. 2378, which is a 
bill to provide for the conveyance of certain public lands in 
Clark County, Nevada, to be used for a heliport;
    Senator Cantwell's bill, S. 2410, a bill to promote 
wildland firefighter safety;
    Representative Radanovich's bill, H.R. 1651, which provides 
for a land exchange within the Sierra National Forest of 
California and allows a long-time Boy Scout camp to continue to 
operate;
    The Congresswoman's bill, H.R. 2400, which I have already 
mentioned;
    Representative Bono's H.R. 3874, which is a bill to convey 
for public purposes certain BLM lands in Riverside County, 
California;
    Representative Pombo's H.R. 4170, which is a bill to 
authorize the Secretary of Interior to recruit volunteers to 
assist with or facilitate the activities of various agencies 
and offices of the Department of the Interior;
    Senator Feingold's Senate Resolution 387, which 
commemorates the 40th anniversary of the Wilderness Act.
    Given the very limited time for this hearing, I would ask 
that all subcommittee members and witnesses adhere to the 5-
minute rule. We will accept all additional testimony or 
statements until 10 days after the close of the hearing if you 
feel the need for additional comment.
    Senator Wyden is not with us at this moment, but Senator 
Cantwell is, so let me turn to her for any opening statement 
she would like to make, and welcome.
    [The prepared statement of Senator Reid follows:]
   Prepared Statement of Hon. Harry Reid, U.S. Senator From Nevada, 
                               on S. 2378
    Mr. Chairman, thank you for the opportunity to appear before you 
today to testify on S. 2378, a bill that Senator Ensign and I 
introduced that addresses a controversial issue in the Las Vegas area.
    The number of helicopter tours departing from the Las Vegas area 
has increased by 50 percent in the last three years, accounting for 
almost 65,000 flights a year. This has resulted in a conflict with 
local residents that live near the current heliport at McCarran 
Airport. Also in the area are the Sloan Canyon National Conservation 
Area and North McCullough Wilderness Area that have the potential to be 
impacted by helicopter operators. In developing this bill, we have 
worked with many stakeholders to arrive at a compromise that resolves 
the conflicts and manages the land and airspace in the public interest.
    S. 2378 would convey 229 acres of public land managed by the Bureau 
of Land Management (BLM) to Clark County, Nevada, for its use as a 
heliport. It would also impose fees on operators for all helicopter 
flights that occur over the Sloan Canyon National Conservation Area 
(NCA) with the proceeds used for the management of cultural, wildlife, 
and wilderness resources on public lands in the State of Nevada. 
Finally, this bill would restrict helicopter operators to a detailed 
flightpath, with appropriate elevations, that will ensure the 
protection of the values found in the Sloan Canyon National 
Conservation Area and the sanity of residents who have been subject to 
the noise of the helicopters.
    There have been a few other sites proposed that I would also, 
provided Clark County maintains final authority over the site 
selection.
    This solution is only possible if the land is provided at no cost 
to the County. With the soaring land values in the Las Vegas area, 
there would be no way to develop a heliport in any proximity to the 
city. In addition, Nevada is in the unique position of being a state 
where 87% of the land is managed by the Federal government, leaving 
opportunities for public services on non-federal land severely limited.
    The solution crafted in this legislation gives the aerial tourism 
industry a way to continue providing to the public the scenic and 
recreational opportunities it demands while resolving the potential 
conflicts helicopters may have. I thank the Chairman and the Committee 
for their consideration of this important piece of legislation to the 
Las Vegas area.

        STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR 
                        FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. Thank you for 
holding this hearing.
    Mr. Chairman, I appreciate the opportunity to talk about 
the Wildland Firefighting Safety Act, which is S. 2410 on 
today's agenda. Many of my colleagues on this committee are 
from the West and are probably aware of the fact that every 
summer we send thousands of our constituents, many of them 
brave men and women, college students on summer break, into 
harm's way to protect our Nation's rural communities and public 
lands. These men and women serve our Nation bravely.
    Since 1910 more than 900 wildland firefighters have lost 
their lives in the line of duty. According to the U.S. Forest 
Service, a total of 30 firefighters across this Nation perished 
in the line of duty last year. These firefighters represented a 
mix of Federal and State employees, volunteers, and independent 
contractors, and they lost their lives for an array of reasons.
    We all realize that fighting fires on our Nation's public 
land is inherently dangerous business. What we cannot and must 
not abide are the preventable deaths; losing firefighters 
because rules were broken, policies were ignored, and no one 
was held accountable. A number of my colleagues will recall 
that in 2001, this issue was pushed to the forefront in the 
State of Washington because of a horrible tragedy. On July 10, 
2001, near Winthrop in Okanogan County, in the midst of the 
second worse drought in the history of our State, the 
Thirtymile Fire burned out of control. Four courageous young 
firefighters were killed: Tom Craven, 30; Karen FitzPatrick, 
18; Jessica Johnson, 19; and Devin Weaver, 21.
    Sadly, a subsequent investigation revealed these young men 
and women did not have to die. In the words of the Forest 
Service's own report on the Thirtymile Fire, the tragedy, 
quote, ``could have been prevented.''
    Since then, I do believe the courage of the Thirtymile 
families to stand up and demand change has had a positive 
impact on the safety of young men and women who are preparing 
to battle blazes as wildland firefighters. Yet, I am deeply 
saddened by the fact that it is clear we have not done enough.
    In July 2003, 2 years after Thirtymile, two more 
firefighters perished under similar circumstances, this time in 
the Cramer Fire in Idaho's national forest. The findings 
associated with the Cramer Fire really are simply mindboggling. 
After Thirtymile, the Occupational Safety and Health 
Administration, OSHA, conducted an investigation and levied 
against the Forest Service five citations for serious and 
willful violation of safety rules. Then, just this March, OSHA 
concluded its investigation of the Cramer Fire. The results: 
another five OSHA citations for serious and willful and repeat 
violations.
    Reading through the list of casual and contributing factors 
for Cramer and putting them next to those associated with the 
Thirtymile Fire, my colleagues would be struck by the 
disturbing similarities. Even more haunting are the parallels 
between this list, this particular list, and the factors cited 
in the investigation of the 1994 South Canyon Fire on Storm 
King Mountain in Colorado. So basically it has been 10 years 
since these 14 firefighters lost their lives on Storm King 
Mountain, and yet the same mistakes are being made over and 
over again.
    Mr. Chairman, these facts have also been documented by an 
audit and memorandum just issued yesterday by the Department of 
Agriculture's Inspector General. The IG found that accidents on 
South Canyon, Thirtymile, and Cramer, all of which involved 
fatalities, could have been avoided if certain individuals had 
followed standard safety practices and procedures in place at 
the time. The IG also noted that the Forest Service has not 
timely implemented actions to improve its safety programs. Some 
27 of the 81 action items identified as a result of Storm King 
and Thirtymile, or roughly a third, have not been implemented 
years later.
    I do not believe that is acceptable, Mr. Chairman. I know 
that the IG's report is just being issued and people are just 
reading it, but I hope my colleagues will look seriously at the 
Wildland Firefighter Safety Act and its modest proposal. It has 
already passed the Senate once as an amendment to the healthy 
forests legislation and I hope that we can pass it again and 
that we will give serious attention to the issue.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Cantwell follows:]
        Prepared Statement of Hon. Maria Cantwell, U.S. Senator 
                      From Washington, on S. 2410
    Mr. Chairman, thank you for holding this important hearing today on 
my legislation, the Wildland Firefighter Safety Act (S. 2410).
    Many of my colleagues on this Committee are from the West and are 
probably aware of the fact that every summer, we send thousands of our 
constituents--many of them brave young men and women, college students 
on summer break--into harm's way to protect our nation's rural 
communities and public lands. These men and women serve our nation 
bravely. Since 1910, more than 900 wildland firefighters have lost 
their lives in the line of duty.
    According to the U.S. Forest Service, a total of 30 firefighters 
across this nation perished in the line of duty last year.
    These firefighters represented a mix of federal and state 
employees, volunteers and independent contractors. And they lost their 
lives for an array of reasons. We all realize that fighting fires on 
our nation's public lands is an inherently dangerous business. But what 
we cannot and must not abide are the preventable deaths--losing 
firefighters because rules were broken, policies ignored and no one was 
held accountable.
    A number of my colleagues will recall that, in 2001, this issue was 
pushed to the fore in the State of Washington, because of a horrible 
tragedy. On July 10, 2001, near Winthrop in Okanogan County, in the 
midst of the second worst drought in the history of our state, the 
Thirtymile fire burned out of control.
    Four courageous young firefighters were killed. Their names:

  <bullet> Tom Craven, 30 years old;
  <bullet> Karen FitzPatrick, 18;
  <bullet> Jessica Johnson, 19; and
  <bullet> Devin Weaver, 21.

    Sadly, as subsequent investigations revealed, these young men and 
women did not have to die. In the words of the Forest Service's own 
report on the Thirtymile fire, the tragedy ``could have been 
prevented.'' At that time, I said that I believe we in Congress and 
management within the firefighting agencies have a responsibility to 
ensure that no preventable tragedy like Thirtymile fire ever happened 
again.
    I'd like to thank my colleague Sen. Bingaman, the distinguished 
Ranking Member of the Senate Energy Committee, as well as Sen. Wyden, 
who was then chair of the Subcommittee on Public Lands and Forests. In 
the wake of the Thirtymile Fire, they agreed to convene hearings on 
precisely what went wrong that tragic day. We heard from the grief-
stricken families.
    In particular, the powerful testimony of Ken Weaver--the father of 
one of the lost firefighters--put into focus precisely what's at stake 
when we send these men and women into harm's way.
    Mr. Chairman, I can think of no worse tragedy that a parent to 
confronting the loss of a child, especially when that loss could have 
been prevented by better practices on the part of federal agencies.
    At the Senate Energy Committee hearing, we also discussed with 
experts and the Forest Service itself ways in which we could improve 
the agency's safety performance. And almost a year to the day after 
those young people lost their lives, we passed a bill--ensuring an 
independent review of tragic incidents such as Thirtymile that lead to 
unnecessary fatalities.
    Based on subsequent briefings by the Forest Service, revisions to 
the agency's training and safety protocols, and what I've heard when I 
have visited with firefighters over the past two years, I do believe 
the courage of the Thirtymile families to stand up and demand change 
has had a positive impact on the safety of the young men and women who 
are preparing to battle blazes as wildland firefighters.
    Yet, I'm deeply saddened by the fact that it's clear we haven't 
done enough.
    In July 2003--two years after Thirtymile--two more firefighters 
perished, this time at the Cramer Fire within Idaho's Salmon-Challis 
National Forest. Jeff Allen and Shane Heath were killed when the fire 
burned over an area where they were attempting to construct a landing 
spot for firefighting helicopters. Certainly some 28 others lost their 
lives fighting wildfires last year, and we must recognize the sacrifice 
and grief befalling their families.
    After the Thirtymile Fire, however, I told the Weavers and the 
Cravens, the families of Karen FitzPatrick and Jessica Johnson that I 
believed we owed it to their children to identify the causes and learn 
from the mistakes that were made in the Okanogan, to make wildland 
firefighting safer for those who would follow. That is why the findings 
associated with the Cramer Fire simply boggle my mind.
    We learned at Thirtymile that all ten of the agencies' Standing 
Fire Orders and many of the 18 Watch Out Situations--the most basic 
safety rules--were violated or disregarded. The same thing happened at 
Cramer, where Heath and Allen lost their lives two years later.
    After the Thirtymile Fire, the Occupational Safety and Health 
Administration (OSHA) conducted an investigation and levied against the 
Forest Service five citations for Serious and Willful violations of 
safety rules. It was eerie, then, when just this March OSHA concluded 
its investigation of Cramer. The result: another five OSHA citations, 
for Serious, Willful and Repeat violations. Reading through the list of 
causal and contributing factors for Cramer and putting them next to 
those associated with the Thirtymile fire, my colleagues would be 
struck by the many disturbing similarities. Even more haunting are the 
parallels between these lists and the factors cited in the 
investigation of 1994's South Canyon Fire on Storm King Mountain in 
Colorado. It's been ten years since those 14 firefighters lost their 
lives on Storm King Mountain--and yet, the same mistakes are being made 
over and over again.
    Mr. Chairman, these facts have also been documented by an audit and 
memorandum issued just yesterday by the Department of Agriculture's 
Inspector General. The IG found that ``while there were many factors 
common to all three fires, the most important was a failure by [Forest 
Service] fire suppression personnel to establish fire safety rules and 
guidelines and to exercise acceptable supervision and judgment.'' The 
audit also stated ``accidents on the South Canyon, Thirtymile, and 
Cramer Fires, all of which involved fatalities, could have been avoided 
if certain individuals had followed standard safety practices and 
procedures in place at the time.'' Lastly, the IG noted that the Forest 
Service ``has not timely implemented actions to improve its safety 
programs.'' Some 27 of 81 action items identified as a result of the 
South Canyon/Storm King, Thirtymile and Cramer fires--or roughly a 
third--have not been fully implemented years later.
    I don't believe that's acceptable. The firefighters we send into 
harm's way every year--and the ones we've already lost--deserve better. 
And in view of the Inspector General's report, issued just yesterday, I 
find it positively astounding that the Forest Service still finds my 
bill ``not necessary.''
    Training, leadership and management problems have been cited in all 
of the incidents I've discussed. What can we do, from the legislative 
branch, to provide our firefighting agencies with enough motivation to 
change? I believe the first step we can take is to equip ourselves with 
improved oversight tools, so these agencies know that Congress is 
paying attention. That is why I introduced the Wildland Firefighter 
Safety Act.
    If my colleagues take the time to review the Inspector General's 
audit, they will find important recommendations for improving the 
safety of our wildland firefighters. The provisions included in my bill 
will ensure we have the tools at our disposal to make sure these 
recommendations are being implemented.
    The Wildland Firefighter Safety Act of 2004 is a modest yet 
important proposal. It was already passed once by the Senate, as an 
amendment to last year's Healthy Forests legislation. However, I was 
disappointed that it was not included in the conference version of the 
bill.
    But it is absolutely clear to me--particularly in light of OSHA's 
review of the Cramer Fire, as well as the IG's audit released 
yesterday--that these provisions are needed now more than ever.
    First, the Wildland Firefighter Safety Act of 2004 will require the 
Secretaries of Agriculture and Interior to track the funds the agencies 
expend for firefighter safety and training.
    Today, these sums are lumped into the agencies' ``wildfire 
preparedness'' account. But as I have discussed with various officials 
in hearings before the Senate Energy and Natural Resources Committee, 
it is difficult for Congress to play its rightful oversight role--
ensuring that these programs are funded in times of wildfire emergency, 
and measuring the agencies' commitment to these programs over time--
without a separate break-down of these funds.
    I understand the Forest Service objects to this measure because it 
will somehow ``undermine'' agency-wide safety initiatives. Particularly 
given the well-known practice in which the agencies are forced to 
borrow from other accounts to pay for emergency fire suppression, 
Congress and taxpayers deserve to know how and whether federal funds 
are being spent to ensure the safety of these firefighters. It defies 
common sense to suggest that a level of greater level of accountability 
would actually undermine safety. In fact, I think it's just the 
opposite.
    Second, it will require the Secretaries to report to Congress 
annually on the implementation and effectiveness of its safety and 
training programs.
    Congress has the responsibility to ensure needed reforms are 
implemented. The IG's recent audit has given us the beginnings of a 
roadmap. We need to make sure it is followed. As such, I believe that 
Congress and the agencies alike would benefit from an annual check-in 
on safety programs. I would also hope that this would serve as a 
vehicle for an ongoing and healthy dialogue between the Senate and 
agencies on these issues.
    Third, my bill would stipulate that federal contracts with private 
firefighting crews require training consistent with the training of 
federal wildland firefighters. It would also direct those agencies to 
monitor compliance with this requirement.
    This is important not just for the private contractor employees' 
themselves--but for the federal, state and tribal employees who stand 
shoulder-to-shoulder with them on the fire line. States have been 
making strides toward improving their oversight of these contract 
crews, but federal agencies should be their willing partners in this 
endeavor. It appears from the witnesses' testimony today that the 
federal agencies have begun to take steps to address some of the 
problems we have seen in the field. But I think requiring this 
monitoring and enforcement by law will ensure that we see sufficient 
attention devoted to this matter.
    Congress owes it to the families of those brave firefighters we 
send into harm's way to provide oversight of these safety and training 
programs. And so, Mr. Chairman, I hope my colleagues on this Committee 
will support this simple legislation. As the Inspector General's audit 
and the OSHA investigations over the past few years make clear, 
Congressional oversight of federal firefighter safety programs is far 
from unnecessary.
    We owe it to our federal wildland firefighters, their families and 
their state partners--and to future wildland firefighters.
    My bill will provide this body with the additional tools it needs 
to do the job. Despite the Administration's opposition to the Wildland 
Firefighter Safety Act, I hope that we can come together to pass this 
legislation, and I remain open to working with these agencies. I thank 
the Chairman, and look forward to the testimony of today's witnesses.

    Senator Craig. Senator, thank you very much for that 
opening comment on S. 2410.
    Now let us turn to the Congresswoman. Thank you again, 
Congresswoman Bordallo, for joining us. We look forward to your 
testimony. Please proceed.

STATEMENT OF HON. MADELEINE Z. BORDALLO, DELEGATE FROM GUAM IN 
THE U.S. HOUSE OF REPRESENTATIVES, ACCOMPANIED BY KALEO MOYLAN, 
             LIEUTENANT GOVERNOR, TERRITORY OF GUAM

    Ms. Bordallo. Good afternoon, Chairman Craig and members of 
the subcommittee, Senator Cantwell. Thank you, Mr. Chairman, 
very much for inviting me to testify in support of H.R. 2400, a 
bill I introduced last year at the request of local leaders in 
Guam to clarify the structure of Guam's judicial branch of 
government.
    Mr. Chairman, I know you did introduce him, but I would 
like to thank our Lieutenant Governor of Guam, Mr. Kaleo 
Moylan, for joining me in Washington during this testimony.
    With your permission, Mr. Chairman, I would like to enter 
into the record my full statement in support of H.R. 2400, as 
well as statements in support from: the Governor of Guam, the 
Honorable Felix Camacho; the Lieutenant Governor of Guam, Kaleo 
Moylan; the Chief Justice of the Supreme Court of Guam, the 
Honorable Philip Carbullido; and a resolution of support from 
the Guam legislature; as well as a resolution from the Judicial 
Council. I think we have already turned over these statements.
    Senator Craig. Sure. Without objection, they will all 
become a part of our record. Thank you.
    Ms. Bordallo. Thank you.
    In 1984, Mr. Chairman, Congress amended the Organic Act of 
Guam to allow the Guam legislature to create an appellate court 
under local law, and in doing so Congress inadvertently left 
the Guam Supreme Court inferior to the other two branches of 
local government. H.R. 2400 would place the Supreme Court where 
it should be, a co-equal branch of government, independent of 
the Guam legislature and executive branches.
    The Organic Act of Guam is much like a State constitution 
in that it defines our territorial government structure. It is, 
however, Federal law and only Congress can amend it. Amending 
the Organic Act to clarify the authority of the Supreme Court 
would enshrine an independent and free judicial branch for 
Guam. As Alexander Hamilton wrote in ``The Federalist No. 78,'' 
quote: ``There is no liberty if the power of judging be not 
separated from the legislation and the executive powers.''
    This good governance measure has received strong support, 
as I mentioned earlier, from the local leadership in Guam. The 
Guam Bar Association, the Judicial Council, the Guam 
Legislature, each passed resolutions urging Congress to enact 
H.R. 2400, and the Governor of Guam, Felix Camacho, and the 
Lieutenant Governor have also expressed and written their 
support for the bill.
    I would like to thank each of you for the expeditious 
manner in which you have considered this legislation. Given the 
daily work of the Supreme Court, I hope that this legislation 
can be passed by the 108th Congress as soon as possible. I look 
forward to being able to tell the people of Guam that the lack 
of clarity inadvertently created by Congress 20 years ago has 
finally been corrected. With your help, Mr. Chairman, the 
people of Guam will share in the same protection of their legal 
system as enjoyed by every other citizen of the United States.
    That concludes my statement and I would be happy to answer 
any questions.
    [The prepared statement of Ms. Bordallo follows:]
      Prepared Statement of Hon. Madeleine Z. Bordallo, Delegate 
              From Guam to the U.S. Congress, on H.R. 2400
    Good afternoon Chairman Craig, Ranking Member Wyden, and Members of 
the Subcommittee. Thank you for inviting me to testify on H.R. 2400, a 
bill I introduced last year at the request of local leaders in Guam to 
amend the Organic Act of Guam for the purposes of clarifying the local 
judicial structure of Guam.
    Under the Omnibus Territories Act of 1984, Congress amended the 
Organic Act of Guam to allow the Guam Legislature to create an 
appellate court under local law for Guam. Pursuant to this authority 
the Guam Legislature established the Guam Supreme Court in 1992 under 
Guam Public Law 21-27, the Frank G. Lujan Memorial Court Reorganization 
Act.
    However, the 1984 amendment to the Organic Act unintentionally left 
the Guam Supreme Court inferior to the other two branches of 
government, leaving the Court vulnerable to shifts in power within the 
legislative and executive branches. H.R. 2400 would make the Guam 
Supreme Court an ``Organic'' court equal in stature to the Guam 
legislative and executive branches and provide the Guam Judiciary the 
same protections afforded the other branches under the Organic Act of 
Guam. Just as the Governor cannot disband the Legislature, and the 
Legislature cannot abolish the executive, so too should the Judiciary 
be free from the threat of abolishment by the legislative or executive 
branches if their judicial decisions come under political fire. The 
Guam Judiciary needs to be insulated from the possibility of political 
interference by the legislative and executive branches, and the balance 
of power among these branches needs to be protected.
    H.R. 2400 would also clarify that the Supreme Court of Guam is an 
appellate court with administrative authority over the Superior Court 
of Guam and any other local courts that have been and may be 
established by Guam law. The need for clarification is evidenced by 
previous attempts by the Guam Legislature to restructure the judiciary. 
In one instance the Guam Legislature passed a law placing the Guam 
Supreme Court, the appellate court, under the administrative authority 
of the Guam Superior Court, the trial court. Although this law was 
eventually invalidated by the Ninth Circuit of Appeals, this highlights 
the weakness of the Court's current status.
    I would like to note that the leaders of the Guam Legislature, the 
executive branch and the Judiciary of the Government of Guam believe 
the structure of the Guam Judiciary should be set forth in the Organic 
Act absent a Guam Constitution. The people of Guam have not adopted a 
Constitution, largely due to concerns about the preemption of the 
exercise of the right of self-determination. An amendment to the 
Organic Act of Guam, as proposed in H.R. 2400, is the only recourse 
available to Congress to meet this objective.
    The leadership of the three branches of the Government of Guam have 
signaled strong support for an ``Organic'' judiciary in the absence of 
a Guam Constitution. On April 23, 2004, all 15 members of the Guam 
Legislature sponsored and passed a resolution supporting H.R. 2400 and 
requesting expeditious passage by the Congress. The Guam Judicial 
Council also passed a resolution on May 6, 2004 which reiterates their 
support for H.R. 2400. In a letter dated May 7, 2004, the Honorable 
Felix P. Camacho, Governor of Guam, also expressed his support for H.R. 
2400.
    The framers of the United States Constitution recognized that an 
effective and independent judiciary could only be realized if judges 
were free from political interference in their decision-making. 
Alexander Hamilton wrote in The Federalist No. 78, ``there is no 
liberty if the power of judging be not separated from the legislative 
and the executive powers.'' H.R. 2400 seeks to realize this goal by 
establishing the Guam Judiciary as a separate and co-equal branch of 
government consistent with the principles espoused by our founding 
fathers.
    I would like to thank each of you for the expeditious manner in 
which you have considered this legislation. Given the daily work of the 
Supreme Court, I hope this legislation can be passed by the 108th 
Congress as soon as possible. I look forward to being able to tell the 
people of Guam that the ambiguity inadvertently created by Congress 
twenty years ago has finally been corrected. With your help, the people 
of Guam will share in the same protection of their legal system as 
enjoyed by every other citizen of the United States.

    Senator Craig. Well, thank you very much. I have no 
questions. I do appreciate this effort and think it is an 
important one and I support it, and we will see if we cannot 
effectively move it through the Congress this year.
    Ms. Bordallo. Thank you so very much, Mr. Chairman.
    Senator Craig. Senator.
    Senator Cantwell. No questions, Mr. Chairman. Thank you.
    Senator Craig. Well, again we thank you. Lieutenant 
Governor, thank you for being with us. We appreciate it.
    Now we will ask the administration witnesses to come 
forward on the balance of the legislation: Chris Pyron, Deputy 
Chief of Business Operations, U.S. Forest Service; and Scott 
Cameron, Deputy Assistant Secretary for Performance and 
Management, Department of the Interior. Welcome both before the 
committee.
    Chris, we will allow you to start if you wish. Please 
proceed with the testimony you would want to give on all of the 
underlying legislation.

   STATEMENT OF CHRISTOPHER PYRON, DEPUTY CHIEF FOR BUSINESS 
    OPERATIONS, FOREST SERVICE, DEPARTMENT OF AGRICULTURE, 
                ACCOMPANIED BY THOMAS HARBOUR, 
        DEPUTY DIRECTOR FOR FIRE AND AVIATION MANAGEMENT

    Mr. Pyron. Thank you, Mr. Chairman. I will try to be brief.
    Today I am joined by Tom Harbour. He is our Deputy Director 
for Fire and Aviation Management.
    Senator Craig. Check and see if that mike is on, would you, 
please.
    Mr. Pyron. Can you hear me now?
    Senator Craig. Ah, we can hear you now.
    Mr. Pyron. Just give me 30 seconds. I cannot help myself, 
but I was a legislative affairs specialist for 5 years from 
1992 to 1997. I have prepped a lot of witnesses, wrote a lot of 
testimony. This is the first time I have ever done this and I 
am much more nervous than I thought I would be sitting out 
there for all those years watching other people do this. So it 
is a real pleasure to be here today.
    Senator Craig. First of all, you put both feet flat on the 
floor.
    [Laughter.]
    Senator Craig. You pull your chair up a little bit.
    Mr. Pyron. You are helping me; I appreciate that.
    Senator Craig. You take a very deep breath.
    Mr. Pyron. How about a drink of water?
    Senator Craig. Get your water close at hand, take a swallow 
of water.
    Mr. Pyron. Thank you.
    Senator Craig. Please proceed.
    Mr. Pyron. Most of my 5 minutes are already up.
    Senator Craig. All right. Well, we will give you a little 
more, then.
    Mr. Pyron. Thank you.
    Mr. Chairman and members of the subcommittee: Thank you for 
the opportunity to present the Department's views on three 
measures: S. Res. 387, commemorating the 40th anniversary of 
the signing of the Wilderness Act; H.R. 1651, the Sierra 
National Forest Land Exchange Act; and S. 2410, the Wildland 
Fire Safety Act.
    The Department supports S. Res. 387. The Forest Service has 
played a large and significant role in forging a wilderness 
philosophy and bringing into existence the wilderness 
preservation system. Early leaders of the wilderness movement, 
Aldo Leopold, Bob Marshall, Arthur Carhart, were Forest Service 
employees. In 1924, at Leopold's insistence, the Gila 
Wilderness, part of the Gila National Forest, became the first 
designated wilderness area in the entire world. Commemorating 
the signing of the Wilderness Act appropriately honors the 
effort of these and other wilderness visionaries.
    For H.R. 1651, which authorizes the exchange of 160 acres 
of Federal land on the Sierra National Forest in California for 
80 acres of non-Federal land, the Federal land would in turn be 
conveyed to the Sequoia Council of the Boy Scouts of America. 
The Department supports the bill, but would like to work with 
the subcommittee on amendments and report language to clarify 
the Secretary's authority regarding the easement associated 
with the subject lands.
    I would like to begin my remarks on S. 2410, the Wildland 
Firefighter Safety Act, by thanking the bill's sponsor, Senator 
Cantwell, for her untiring efforts to help us improve safety 
and increase safety awareness. Her continuing efforts have led 
to an increased emphasis on safety issues within the Department 
of Agriculture and the Department of the Interior, particularly 
as it relates to firefighting, and we appreciate that 
contribution.
    The Department of Agriculture and the Interior recognizes 
the importance of firefighting training for all wildland 
firefighters and have taken significant steps to improve 
training and ensure our existing systems document performance 
regarding safety. However, the Departments believe the bill is 
not necessary. If the committee ultimately disagrees, we would 
like to work with you to address concerns with the current 
version of the bill.
    The Departments are concerned that the inclusion of a 
budget line item within the proposed legislation may not 
achieve the oversight desired and may undermine the benefits of 
agency-wide safety efforts. These efforts occur across multiple 
budget activities and will not be visible at the budget line 
item level. Virtually every firefighting training course that 
is offered today includes some element of fire safety training.
    The safety of our firefighters rests not just on the 
quantity of the training we provide, but also on its quality 
and how each firefighter uses that training in performing his 
or her job. Quality assurance is an important component of any 
safety effort.
    Rather than focus on budget structure, the Department 
suggests that the establishment, use, and reporting of 
firefighter safety performance measures and practices would 
better serve the goals of improved safety performance.
    A recent review of the Forest Service firefighter safety 
program completed by the USDA Office of Inspector General 
identifies four areas in which the agency can strengthen 
efforts to promote firefighter safety. These are: One, 
monitoring the agency's response to fire safety 
recommendations; two, maintaining centralized records to 
support firefighting qualifications; three, conducting 
administrative investigations on serious fire accidents; and 
four, incorporating firefighting safety standards as critical 
elements in firefighter performance evaluations. We concur with 
these findings and are working with the Office of Inspector 
General on its list of recommended actions.
    In reviewing the similarities among the incidents that led 
to the fatalities over the last 10 years, we realized the need 
for Type 3 incident commanders to be capable of performing at a 
higher level of competency to oversee and manage transition 
fire operations. We now require Type 3 ICs to undergo a 
simulation to test their decision-making skills when faced with 
the kinds of conditions that led to the tragedies at Storm 
King, Thirtymile, and Cramer. Every Type 3 incident commander 
was tested for sufficient leadership and decision-making skills 
prior to the 2004 fire season.
    It is important to note that most of our efforts in 
firefighting are done safely and well. Of the 10,000 plus fires 
that the Forest Service fights on an average year, 98 to 99 
percent of those are controlled through initial attack, and our 
safety record in this phase of firefighting is good. When faced 
with megafires, such as the Rodeo-Chediski Fire, the Biscuit 
Fire, or the Hayman Fire, we do that well and safely, too, and 
in fact our safety record is even better.
    But on some transition fires, as evidenced by our 
experience at Storm King, Thirtymile, and Cramer, agency 
performance has been lacking, contributing to the loss of life. 
We are working diligently to improve our performance and we 
believe we are working on the right things.
    Mr. Chairman and members of the subcommittee, it grieves us 
terribly to lose any firefighter. We have made many changes to 
respond to the gaps in our programs. We believe that thinking 
of firefighter preparedness as a whole, rather than the 
specific training courses, helps us in assessing quality and 
effectiveness. We welcome the oversight from Congress to help 
us make further progress in this area.
    Thank you, Mr. Chairman and members of the subcommittee. I 
would be happy to answer your questions at this time. Thank 
you.
    [The prepared statement of Mr. Pyron follows:]
  Prepared Statement of Christopher Pyron, Deputy Chief for Business 
   Operations, Forest Service, on S. Res. 387, H.R. 1651, and S. 2410
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to discuss with you these measures.

SENATE RESOLUTION 387 COMMEMORATING THE 40TH ANNIVERSARY OF THE SIGNING 
                         OF THE WILDERNESS ACT
    The Department supports Senate Resolution 387 commemorating the 
40th anniversary of the Wilderness Act.
    With the signing of the Wilderness Act by President Lyndon B. 
Johnson on September 3, 1964, the National Wilderness Preservation 
System was established to ``. . . secure for the American people of 
present and future generations the benefits of an enduring resource of 
wilderness.''
    The Forest Service has played a large and significant role in 
forging a wilderness philosophy and bringing about the Wilderness 
Preservation System that we see today. The early supporters of 
wilderness in America, Aldo Leopold, Bob Marshall and Arthur Carhart 
were all Forest Service employees who had a vision of preserving 
portions of the American continent to retain its primeval character and 
influence, without permanent improvement or human habitation. They saw 
the increasing encroachment of civilization onto the American landscape 
and realized the value of setting aside tracts of land where man is but 
a visitor and natural processes are allowed to occur.
    In 1924, at Aldo Leopold's insistence, the Forest Service 
designated the Gila Wilderness located on the Gila National Forest in 
southern New Mexico, as the world's first designated wilderness area. 
Today the Forest Service oversees nearly 35 million acres of wilderness 
which represents 32% of the National Wilderness Preservation System.

             H.R. 1651 SIERRA NATIONAL FOREST LAND EXCHANGE
    H.R. 1651 authorizes the exchange of 160 acres of Federal land on 
the Sierra National Forest in California for 80 acres of non-Federal 
land within one year. The bill would provide for the exchange of a 
private in-holding in two isolated parcels of federal land, this 
improving management efficiency for the Sierra National Forest. A 
portion of the federal parcel us subject to an existing federal 
hydropower license.
    The Department supports the bill but would like to work with the 
Subcommittee on amendments or report language to clarify the 
Secretary's authority regarding the easement associated with the 
subject lands.
    H.R. 1651 specifies the value of the Federal land to be $250,000 
and the value of the non-Federal land to be $200,000. The bill gives 
the Secretary the authority to accept a cash equalization payment of 20 
percent of the value of the Federal land or 25 percent of the value of 
the non-federal land. The conveyance would be subject to a condition 
that the recipient of the Federal land would agree to convey the land, 
within four months to the Sequoia Council of the Boy Scouts of America. 
The conveyance would also be made subject to valid existing rights 
including the easement required under 4(c).

                S. 2410 WILDLAND FIREFIGHTER SAFETY ACT
    S. 2410, the Wildland Firefighter Safety Act of 2004, would require 
the Secretary of Agriculture and the Secretary of the Interior to track 
funds expended for firefighter safety and training programs and 
activities and to include a line item for such expenditures in annual 
budget requests. This bill would also require the Secretaries to 
jointly submit a report on the implementation and efficacy of wildland 
firefighter safety and training programs and activities to Congress 
each year. In addition, the bill would direct the Secretaries to ensure 
that any Federal contract or agreement with private entities for 
firefighting services requires the entity to provide firefighting 
training consistent with qualification standards set by the National 
Wildfire Coordinating Group. The Secretaries would be further directed 
to develop a program to monitor and enforce compliance with this 
contracting requirement.
    Both Departments recognize the importance of firefighting training 
for all wildland firefighters and have taken significant steps to 
improve training and ensure that our existing systems document 
performance regarding safety. However, for reasons I'll explain 
shortly, the Departments believe the bill is not necessary. If the 
Committee ultimately decides S. 2410 is necessary, the Departments of 
Agriculture and the Interior would like to work with the Committee to 
address our concerns with the current version of the bill.
    Safety and training are the major part of firefighter preparedness. 
Formal classroom training, on-the-job training, drills, discussions, 
and reviews are part of an extensive training program. Firefighters 
must complete both coursework and multiple training assignments before 
they are certified for positions.
    The Departments are concerned that the inclusion of a budget line 
item within the proposed legislation may not achieve the oversight 
desired and may undermine the benefits of agency-wide safety efforts. 
These efforts occur across multiple budget activities and would not be 
visible at the budget line item level. Virtually every firefighting 
training course that is offered today includes some element of fire 
safety training. It is difficult to assess the entire cost of 
firefighter safety because it is not just the quantity of training but 
also the quality of the training and the performance of each 
firefighter. Quality assurance is an important component of any safety 
effort.
    Rather than focus upon budget structure, the Departments suggest 
that the establishment, use, and reporting of firefighter safety 
performance measures and practices would provide improved safety 
accountability and assist with our efforts to improve safety 
performance, assure quality, and implement lessons learned and best 
practices in an open and transparent manner.
    With regard to contracts and agreements for contract firefighters, 
our Forest Service and Department of the Interior contracts require 
firefighting training and experience as prescribed by the qualification 
standards established by the National Wildfire Coordinating Group. We 
agree that a program to monitor and enforce compliance with these 
standards is essential. This has been a challenge due to the explosive 
growth in the number of contract resources available. However, positive 
steps are underway to address this concern:

  <bullet> The Pacific Northwest region has the bulk of contract fire 
        fighting resources. A task group has been formed to design 
        effective business processes for managing a contracted resource 
        program and these ``best practices'' will be considered for 
        adoption in other parts of the country.
  <bullet> This past summer, a contract was issued to perform pre-
        season inspections of fire crews, engines and water tenders. 
        This effort is promising and will be continued.
  <bullet> Additional training for agency personnel to act as 
        inspectors and contract administrators for contract resources 
        on assignment is on going.

    Recently, the USDA Office of Inspector General (OIG) completed a 
review of the Forest Service Firefighting Safety Program. That report 
identified four areas in which the agency can strengthen efforts to 
promote firefighter safety. The report noted that the Forest Service 
has made significant improvements in the safety of its firefighting 
operations. The report also noted that the Occupational Safety and 
Health Administration (OSHA) investigative report for the Thirtymile 
Fire identified weaknesses in the enforcement of safety standards but 
acknowledged that the Forest Service had excellent written firefighting 
safety policies and procedures. Units visited by OIG during their audit 
conducted regular fire safety training. Those firefighting personnel 
interviewed as part of the audit gave positive reviews of the manner in 
which the agency emphasized and incorporated safety into training 
operations. Finally, OIG found that the Forest Service continues to 
improve its coordination with other wildland firefighting organizations 
and has required additional courses for its own firefighting personnel.
    The four areas that the OIG identified as needing greater attention 
were: (1) monitoring the agency's response to fire safety 
recommendations, (2) maintaining centralized records to support 
firefighting qualifications, (3) conducting administrative 
investigations on serious fire accidents, and (4) incorporating 
firefighting safety standards as critical elements in firefighter 
performance evaluations. We concur with these findings and their 
associated recommendations. We are working with OIG on its list of 
recommended actions.
    In reviewing the similarities among the incidents that led to 
fatalities over the last ten years, we realized the need for Type 3 
Incident Commanders (ICs) to be capable of performing at a higher level 
of competency to oversee and manage transition fire operations. We now 
require Type 3 ICs to undergo a simulation to test their decision 
making skills when faced with the kinds of conditions that lead to the 
tragedies at Storm King, Thirtymile and Cramer. Every Type 3 incident 
commander was required to be tested for sufficient leadership and 
decision making skills for the 2004 fire season. One thousand sixty 
eight people completed simulation; 64 retook the simulation; in all, 30 
did not pass the assessment. We are working with the National Wildfire 
Coordinating group for protocols to test other types of firefighting 
positions.
    We continually evaluate our firefighter safety programs. As this 
Subcommittee is aware, after the investigations of fatal fires in the 
last 10 years, we reexamined our programs in depth and implemented 
numerous, significant changes. These changes were developed in 
cooperation with the Occupational Safety and Health Administration, the 
Department of the Interior and other interagency partners through the 
National Wildfire Coordinating Group. For example, we improved our fire 
complexity analysis; enhanced the training and accountability of agency 
administrators involved in fire suppression; clarified and emphasized 
fatigue awareness; and improved work/rest guidelines. We also modified 
driving guidelines for our employees and our contractors. We recently 
began the use of the Incident Qualifications Certification System. The 
new certification system enhances our ability to track the formal 
training and on-the-job training of each federal firefighter. With this 
system, managers and supervisors can better measure previous training 
and determine future training needs.
    Beyond procedural steps and guidelines, we are concentrating on 
human factors such as experience, leadership, and performance. One of 
the major initiatives in this realm is the interagency Wildland Fire 
Leadership Development Program. The program is comprised of three major 
components. The first is a set of leadership values and principles that 
define good leadership and provide a framework for evaluating the 
performance of firefighters in leadership roles. The second component 
is a curriculum of formal leadership development courses that are 
designed to span the career of wildland firefighters from entry levels 
to management levels. The third component is an on-line resource 
(www.fireleadership.gov) that assists individual firefighters seeking 
to improve their leadership skills through self-directed continuing 
education efforts. Emphasis is placed on preparing leaders for the 
decision-making demands of firefighting.
    The OIG audit examined the performance of some of our contract 
crews and concluded there is no indication the recently implemented 
control improvements would not be effective in improving contract crew 
quality. Contracted firefighting resources are an important capability 
for the agencies. We recognize our responsibilities for these 
resources, and we are striving to improve our management oversight of 
these resources to ensure safe, reliable performance.
    Mr. Chairman and members of the Subcommittee, it grieves us 
terribly to lose any firefighter. We have made many changes to respond 
to gaps in our programs. We believe that thinking of firefighter 
preparedness as a whole, rather than specific training courses, helps 
us in assessing quality and effectiveness. We welcome continuing 
oversight from Congress to help us make further progress in area.
                                summary
    Thank you, Mr. Chairman and members of the Subcommittee. I would be 
happy to answer your questions.

    Senator Craig. Well, thank you very much, Chris.
    Now let us turn to you, Scott, for your testimony, and then 
we will ask questions of both of you. Thank you.

         STATEMENT OF SCOTT CAMERON, DEPUTY ASSISTANT 
           SECRETARY FOR PERFORMANCE AND MANAGEMENT, 
                   DEPARTMENT OF THE INTERIOR

    Mr. Cameron. Thank you very much, Mr. Chairman, Senator 
Cantwell.
    I also cannot resist making a personal observation. Back in 
the 1980's I was a legislative assistant for a Senator on this 
very committee, and it is good to be back here, although I am a 
little bit more nervous to be on this side of the dais than it 
was to be on that side. But I am glad to be with you today to 
testify on a number of bills.
    S. 2378 would convey without consideration 229 acres of 
BLM-managed public lands to Clark County, Nevada, for its use 
as a heliport. The Department supports the goals of this 
legislation, but cannot support a conveyance of public lands 
that does not involve payment to the Treasury for the value of 
those lands. The BLM as a matter of both policy and practice 
receives market value for public lands transferred out of 
Federal ownership. Therefore we strongly recommend that the 
bill be modified to require the receipt of fair market value 
for the lands to be conveyed.
    Alternatively, and absent legislation, I should point out 
that BLM could convey or lease appropriate lands to Clark 
County under existing authorities under the Federal Land Policy 
Management Act and other statutes.
    The Department also has concerns regarding the designated 
flight paths over Sloan Canyon National Conservation Area, 
which is home to a large population of desert bighorn sheep.
    H.R. 3874 would transfer approximately 44 acres of land 
managed by the Bureau of Land Management to the city of Palm 
Springs, California, actually in the city of Palm Springs, to 
the SVDP Management, Inc., again at no charge, for purposes of 
providing a homeless shelter, a training center, and affordable 
housing on those lands. The Department genuinely applauds the 
goals of this organization and its record of service to the 
people of the area. Under the Recreation and Public Purposes 
Act, the BLM can administratively transfer lands at reduced 
price to nonprofit organizations.
    While we understand that there is urgency in completing the 
transfer proposed under this legislation and the sponsor may 
not wish to pursue an administrative transfer under the 
Recreation and Public Purposes Act, we nevertheless believe 
that the pricing regime under that act should apply in this 
instance.
    H.R. 4170 is a bill to authorize the Secretary of the 
Interior to recruit volunteers to assist with the activities of 
various bureaus and offices of the Department. The Department 
strongly supports this bill and urges that it be enacted. It is 
consistent with the administration's program.
    The bill would fill several statutory gaps, providing 
authority for the Bureau of Indian Affairs and the Office of 
the Secretary to work with volunteers and perfecting the 
existing volunteer authority of the U.S. Geological Survey and 
the Bureau of Reclamation. The bill is entirely consistent with 
existing volunteer authorities that Interior has. For instance, 
our Fish and Wildlife Service, the Park Service, and Bureau of 
Land Management have used volunteers very successfully for 
many, many years.
    The bill does not disturb the current volunteer authority 
of those bureaus that presently have sufficient authority and 
it does not disrupt the existing programs of any of our 
bureaus. It is also important to note, I think, that providing 
this additional volunteer authority would not have any negative 
impact at all on Interior employees. There have certainly been 
no Interior employees displaced as a result of having enhanced 
volunteer authority at Interior.
    Finally, I will address H.R. 2400 that we heard about at 
the very beginning of the hearing, to amend the Organic Act of 
Guam to clarify Guam's local judicial structure. H.R. 2400 
would establish the local court system of Guam as a third, co-
equal, and unified branch of government alongside the 
legislative and executive branches of the government of Guam. 
The administration has no objection to passage of the bill.
    In 1994, the legislature of Guam established the Supreme 
Court of Guam, but 2 years later the legislature removed from 
the Supreme Court its administrative authority over the 
Superior Court of Guam. Since then Guam has had a bifurcated 
local court system, at a time where virtually every other 
entity, every other state, every other territory in the United 
States, has had a unified court system.
    H.R. 2400 would amend the judicial provisions of the 
Organic Act of Guam to specifically name the Supreme Court as 
Guam's appellate court and outline the powers of the court, 
including full administrative authority for the Supreme Court 
over the local court system.
    So again, I appreciate the opportunity to testify and my 
full statement on all these bills is inserted for the record, 
and I look forward to any questions you might have, Mr. 
Chairman or Senator Cantwell.
    [The prepared statements of Mr. Cameron follow:]
   Prepared Statement of Scott Cameron, Deputy Assistant Secretary, 
         Performance and Management, Department of the Interior
                               on s. 2378
    Mr. Chairman, thank you for the opportunity to appear before you 
today to testify on S. 2378, a bill that would convey 229 acres of 
public lands managed by the Bureau of Land Management (BLM) to Clark 
County, Nevada, for its use as a heliport. S. 2378 would also impose 
fees on operators for all helicopter flights that occur over the Sloan 
Canyon National Conservation Area (NCA) with the proceeds used for the 
management of cultural, wildlife, and wilderness resources on public 
lands in the State of Nevada. The Department supports the goals of S. 
2378, but cannot support a conveyance of public lands that does not 
ensure a fair return to the public for the use of those lands.
    The BLM recognizes the massive growth occurring in Clark County and 
understands the need to accommodate local interests and tourism in a 
way that balances local needs with important environmental 
considerations. Congress chose to address these concerns through the 
Southern Nevada Public Lands Management Act (SNPLMA) and subsequent 
amendments that have established a sale boundary within which BLM has 
worked to provide public lands to accommodate the growth in and around 
Las Vegas.
    The public lands proposed for conveyance in S. 2378 consist of 229 
acres that lie immediately west of the Sloan Canyon National 
Conservation Area, which includes the North McCullough Wilderness Area, 
and are bordered on the west by Interstate 15. These lands are adjacent 
to, but fall just outside of, the SNPLMA disposal boundary. The 
legislation directs the BLM to convey these lands to Clark County for 
no consideration subject to valid existing rights. The BLM, as a matter 
of both policy and practice, and in accordance with the Federal Land 
Policy and Management Act (FLPMA), generally requires receipt of fair 
market value for public lands transferred out of public ownership. This 
serves to ensure that taxpayers are fairly compensated for the removal 
of public lands from federal ownership.
    Given the high market value of these lands, we strongly recommend 
that the bill be modified to require the receipt of a fair market value 
payment for the lands to be conveyed. Alternatively and absent 
legislation, the BLM could lease these lands to Clark County under the 
existing authority of Section 302 of FLPMA. Under this scenario, the 
Department would grant a lease to Clark County and would charge an 
annual rental that reflects the market value of the land.
    S. 2378 also imposes a $3 conservation fee for each passenger on a 
helicopter tour if any portion of the helicopter tour occurs over the 
Sloan Canyon National Conservation Area. The bill directs the Clark 
County Department of Aviation to collect these fees and deposit them in 
a special account in the United States Treasury to be used by the 
Secretary of the Interior for the management of cultural, wildlife, and 
wilderness resources on public land in the State of Nevada. The BLM 
supports the concept of this provision but recommends that the fees be 
adjusted for inflation and be deposited in SNPLMA's Special Account. 
This would preclude the BLM from having to establish another permanent 
operating fund with essentially the same function as SNPLMA's Special 
Account. It would also give the Secretary additional flexibilities, as 
provided for in SNPLMA, in addressing environmental needs in Nevada in 
addition to those defined in the bill.
    While the Department defers to the Federal Aviation Administration 
(FAA) regarding safety and other airspace issues, we note that the FAA 
generally opposes legislative mandates for specific flight paths. The 
Department of the Interior also has concerns about the flight path 
identified in this legislation. The flight path as identified in the 
bill, and the anticipated frequency of flights, would greatly impact 
the very wilderness characteristics and visitor use values that the 
Congress sought to protect and preserve when it established the Sloan 
Canyon National Conservation Area and the North McCullough Wilderness 
Area in the Clark County Conservation of Public Land and Natural 
Resources Act of 2002. These areas contain sites frequently used by 
Native Americans and others for religious ceremonial purposes. They 
also provide important migration corridors and resting, breeding, and 
feeding grounds for desert bighorn sheep, which are a special status 
species in Nevada. Moreover, visitor solitude and quality recreation 
experiences would be diminished.
    The Department of Justice advises that it has concerns regarding 
inconsistencies in the bill which we would like to work with the 
Committee to address.
    Thank you for the opportunity to testify on this bill. We look 
forward to working with the Committee to resolve the issues discussed 
above and address the needs of local communities and critical 
environmental issues in the State of Nevada. I will be happy to answer 
any questions.

                               H.R. 3874
    Thank you for the opportunity to present testimony on H.R. 3874, 
introduced by Representative Mary Bono and which passed the House of 
Representatives on July 19, 2004. H.R. 3874 would transfer 
approximately 44 acres of land managed by the Bureau of Land Management 
(BLM) in the City of Palm Springs, California, to S.V.D.P. Management, 
Inc., for the purposes of providing a homeless shelter, training 
center, and affordable housing on the lands. The Department supports 
the goals of this legislation, but recommends some modifications.
    The proposed transferee under the bill, S.V.D.P. Management, Inc., 
transacts business as Father Joe's Villages. Father Joe's Villages is a 
nonprofit organization operating in the southwest United States 
offering education, job training, child care, health care and substance 
abuse counseling to thousands of families and individuals. Helping the 
homeless has been a major focus of the organization and the proposed 
facility in Palm Springs seeks to further that goal.
    The lands proposed for transfer under the bill lie on the northern 
outskirts of Palm Springs, near an Army Corps of Engineers flood 
control dike and a parcel of land previously conveyed by the BLM to the 
City of Palm Springs for a park. The legislation directs the Secretary 
of the Interior to transfer the lands without consideration to Father 
Joe's Villages. While the Department applauds the outstanding goals of 
this organization, we typically require that the government receive 
fair market value for lands transferred outside the Federal government.
    Under the Recreation & Public Purposes (R&PP) Act, the BLM can 
administratively transfer lands at a reduced price to nonprofit 
organizations for certain purposes. Specifically, nonprofit 
organizations may be required to pay only 50% of fair market value if 
the lands are to be used for such things as public recreation, museums 
and social services that are open to the public. While we understand 
that there is urgency in completing the transfer proposed under this 
legislation, and the sponsor may not wish to pursue an administrative 
transfer under the R&PP, we nevertheless believe, at a minimum, that 
the R&PP pricing guidelines should be applied.
    Section 1(b) of H.R. 3874 states that the lands conveyed are to 
provide a homeless shelter, a training center and affordable housing. 
While a homeless shelter may well qualify for a reduced R&PP rate, 
affordable housing is not an allowed use under the R&PP, and it is 
unclear whether or not the training center would qualify. We would like 
the opportunity to work with the Committee to clarify the legislative 
language to specify exactly which lands are proposed for which specific 
uses and the appropriate compensation to the Federal government.
    We should note that because these lands are within the City of Palm 
Springs, their full development value is significant. The value of 
these lands would normally be determined through an objective appraisal 
conducted in accordance with the Uniform Appraisal Standards for 
Federal Land Acquisitions (UASFLA). However, we are mindful that 
legislated land transfers often promote varied public interest 
considerations that may not lend themselves readily to the standard 
appraisal process or to equal value exchanges in all cases. In these 
instances, the balancing of important public policy considerations 
against the financial implications of proposed transfers are ultimately 
a question that rests with Congress. In balancing these considerations, 
Congress may wish to seek more detailed information concerning the 
proposed uses of the lands sought for transfer.
    Section 1(c) of the bill, as passed the House, provides for the 
discretionary reversion of these lands to the Secretary of the Interior 
if they are not used for the purposes specified in the legislation. We 
recommend a further modification of the reverter clause to provide that 
such a reversion is subject to the transferee's cleanup of any 
hazardous materials at the site. This would ensure that the Federal 
government is not forced to assume potential liabilities that may 
arise.
    Thank you for the opportunity to testify. Again, we look forward to 
working with the Committee to help achieve a positive result. I will be 
happy to answer any questions from the Committee.

                       ON H.R. 4170 AND H.R. 2400
    Mr. Chairman and members of the Committee, it is a pleasure for me 
to appear before you today to discuss the Administration's views on a 
number of bills of concern to the Department of the Interior.
    First, I would like to speak about H.R. 4170, a bill to authorize 
the Secretary of the Interior to recruit volunteers to assist with the 
activities of various agencies and offices of the Department of the 
Interior. The Department of the Interior strongly supports this bill 
and urges that it be enacted. It is consistent with the 
Administration's program. Through our Take Pride in America program, 
the Department of the Interior recruits, supports, and recognizes 
volunteers who work to improve our public lands and cultural and 
historic sites. Volunteers across America help public land managers fix 
fences and trails, stabilize soils, replant stream banks devastated by 
forest fires, restore historic buildings, teach kids to fish, collect 
data and monitor bird populations. They direct their energy to serving 
the American public and building a culture of responsibility.
    Currently, just five of the Interior Department's eight bureaus 
have authority to accept volunteers, and two of these have only limited 
authority to use volunteers. Statutory provisions regarding the proper 
limitations on using volunteers are inconsistent or nonexistent. H.R. 
4170 would provide clear authority to pay for incidental services or 
costs associated with volunteers, such as providing supplies or 
transportation to a work site, and for training and supervision of 
volunteers. This bill would fill many statutory gaps, providing 
authority for the Bureau of Indian Affairs and the Office of the 
Secretary to work with volunteers to support the renewal of the Take 
Pride in America program, and perfecting the existing volunteer 
authority of the United States Geological Survey and the Bureau of 
Reclamation. The Department of the Interior is therefore pleased to 
support the passage of this legislation.
    The bill is entirely consistent with existing authorities. It does 
not disturb the current statutory volunteer authority of the three 
bureaus that presently have sufficient authority and avoids disruption 
of existing programs to the maximum extent possible. This bill would 
not displace employees.
    The Department of the Interior is a leader in the federal 
government in providing opportunities for volunteer service. Because of 
our unique mission in support of the Nation's natural and cultural 
heritage, we believe that expanding volunteer authority makes eminent 
good sense and that this bill is suitably drafted for that purpose. If 
this bill is enacted, Americans will have opportunities, for example, 
to volunteer as tutors in BIA schools. Nineteenth century French writer 
Alexis de Tocqueville observed that the United States was a nation of 
voluntary associations. H.R. 4170 will help to make sure our 21st 
century laws keep this spirit of volunteerism alive.
    Next, I will address H.R. 2400--a bill to amend the Organic Act of 
Guam to clarify Guam's local judicial structure. H.R. 2400 would 
establish the local court system of Guam as a third co-equal, and 
unified branch of government, alongside the legislative and executive 
branches of the Government of Guam. The Administration has no objection 
to the passage of this bill.
    Enacted by the Congress, the Organic Act of Guam sets out the 
structure of the government of Guam. Amendments over time have 
continually added to self-government in the territory. The Organic Act 
established a legislature. It was later amended to change the executive 
from an appointed Governor to an elected Governor, and in 1984, to 
authorize the Legislature to establish a local appeals court. In 1994, 
under the authority granted in the Organic Act, the Legislature of Guam 
established the Supreme Court of Guam. But, two years later, the 
Legislature removed from the Supreme Court its administrative authority 
over the Superior Court of Guam. Since then Guam has had a bifurcated 
local court system at a time when virtually all states have unified 
court systems.
    H.R. 2400 would amend the judicial provisions of the Organic Act of 
Guam to specifically name the Supreme Court of Guam as Guam's appellate 
court, and outline the powers of the Supreme Court, including full 
administrative authority for the Supreme court over the local court 
system.
    It is argued that only an act of Congress can bring unity and 
dignity to Guam's local courts. Proponents of H.R. 2400 suggest that if 
the Legislature retains control, the court system is subject to 
influence by the Legislature. Only by placing local court authority in 
the Organic Act of Guam can the judiciary of Guam be a co-equal and 
independent branch of the Government of Guam. Opponents suggest that 
the system is working fine, and that an administrative function divided 
between the Supreme Court and Superior Court is healthy for judicial 
system.
    The structure of Guam's local judiciary is largely a self-
government issue for Guam. As such, opinion from Guam should be given 
great consideration, as long as issues of overriding Federal interest 
are not involved. In 1997, the Executive branch examined an earlier 
version of the bill under consideration today. A number of suggestions 
were made for improving the bill and harmonizing it with the Federal 
court system. H.R. 2400 includes the suggested modifications in 
language. The Administration, therefore, has no objection to the 
enactment of H.R. 2400 in its present form.

    Senator Craig. Scott, thank you very much.
    Let us start right with you, and let me ask one question 
about the legislation for Guam. Is it the Department of the 
Interior's position that a Federal amendment to Guam's Organic 
Act is necessary to solidify the independent judicial structure 
in Guam?
    Mr. Cameron. Yes, sir, it is.
    Senator Craig. Let me ask about S. 2378, the Clark County, 
Nevada, conveyance bill. What is the estimated value of the 
land to be conveyed in this bill?
    Mr. Cameron. Approximately $57 million.
    Senator Craig. In your testimony you indicate that there is 
an administrative process for authorizing a heliport. What is 
involved in the process and what would the rental cost of this 
be?
    Mr. Cameron. Under the Recreation and Public Purposes Act, 
the local government, Clark County in this instance, would 
apply to the Bureau of Land Management office and, depending 
upon the particulars, land would be made available at roughly 
50 percent of fair market value. There is an option for 
conveying the land in fee title. There is also an option under 
a 1928 statute and I believe a 1982 statute for potentially 
leasing the land, again at 50 percent of fair market value.
    So I could not give you an exact figure on what the rental 
rate might be at this point, but there are opportunities for 
significant discounts, if you will, compared to the fair market 
value, whether you are talking a lease arrangement or conveying 
fee title.
    Senator Craig. Do you know if there are alternative sites 
available for this heliport?
    Mr. Cameron. My understanding is that the county and the 
congressional delegation have had a number of conversations and 
that they are thinking of some alternative sites. BLM has not 
been a party to those discussions, so I could not tell you 
specifically what those might be.
    Senator Craig. Thank you.
    Chris, I noted--and I am talking about the Northern Sierra 
Forest California conveyance bill, H.R. 1651. I note that the 
bill established the values for both the lands that the Boy 
Scouts will be eventually receiving as well as lands that the 
Forest Service will be receiving, rather than the normal 
requirement of an equal value exchange after the normal 
prescribed appraisal.
    How comfortable is the Forest Service that these legislated 
values are fair to the American taxpayer?
    Mr. Pyron. We believe it is a good exchange, in the sense 
that we are giving up a parcel that is outside the forest 
boundaries. It is 160 acres, but it is mostly under water. 
There is only about 15 acres that is actually outside of the 
FERC license for Southern California Edison. We had significant 
conversations as we went through this and, given the condition 
of our land, of which we also do not have dedicated access, it 
seemed to our folks that it made sense and it was reasonable 
and we were comfortable with the valuations contained in the 
bill.
    Senator Craig. Now, the legislation does deal with an 
easement across private property.
    Mr. Pyron. That is correct.
    Senator Craig. Do you know if the current private property 
holders accept that?
    Mr. Pyron. The easement would be established by the Forest 
Service granting the easement to Southern California Edison 
before the conveyance took place to the other party. So the 
easement does not currently exist. It is a condition of the 
bill.
    Senator Craig. I see, okay.
    Mr. Pyron. It is something it is my understanding Southern 
California Edison asked for.
    Senator Craig. I see that by the bill the Federal land is 
deemed to be worth about $1,560 an acre and it is lakefront 
property. Can you give us any comparable land sales, suggest 
comparables that would be lakefront land in California?
    Mr. Pyron. Actually, again if you look at the condition of 
the land, the fact that most of it is inundated, most of the 
160 acres is inundated because of the FERC license that covers 
all but about 15 acres of the land, the lack of access, we did 
not have any real comparables that I am aware of, but that all 
detracts from what would otherwise seem to be a very low price 
for the value of the land.
    Senator Craig. I see that we have a value of non-Federal 
land, whether it is a comparable or not I am not sure, at 
around $2,500 an acre. So if those conditions exist and there 
is no access currently, then I can appreciate the difference in 
value.
    Mr. Pyron. And my understanding is the other land was 
compared--we had other land to compare it to to make that 
determination, so we are comfortable with that valuation.
    Senator Craig. Well, my time in this round is up, so let me 
turn to Senator Cantwell for questions of the administration.
    Senator Cantwell. Thank you, Mr. Chairman.
    Mr. Pyron, you were right in your testimony that this body 
or no member can manage the Forest Service. We cannot. But we 
can have oversight, and I would like to know, in regards to the 
Senate bill and your testimony, which provisions do you 
specifically object to? Do you object to the specific calling 
out of how much money the Department would spend on training so 
that Members of Congress would know exactly how much money that 
is? Does the agency specifically object to that section?
    Mr. Pyron. We have concerns about the difficulty that we 
would have in collecting, defining what constitutes training 
and then going out and collecting that information across the 
wide variety of activities. As I said before, training is an 
integral part of almost everything we do, safety training and 
the safety aspects of training. To separate that all out would 
be very, very difficult for us.
    We could come up with a lot of different numbers that would 
satisfy various definitions, but would not tell us a lot. That 
is more what we are concerned of, is the value of the number--
--
    Senator Cantwell. Wouldn't a specific amount of money tell 
you at least some goal and focus and convince people that you 
were not constantly raiding those dollars to be used for 
emergency firefighting instead of training people in advance? I 
mean, we have a system today which basically said there was an 
identified item in 417, a suspicious substance. That was part 
of our preparedness efforts here in the Capitol to make these 
buildings safe. I do not know that anybody would have put that 
communication and that particular incident down as part of the 
cost. So we are not looking for every detail.
    But right now the public is left without any information 
about what we are spending on training within the Forest 
Service, an agency that employs lots of people who go out and 
fight these fires. And as OSHA and the Inspector General are 
now saying, you are still, after 10 years, making the same 
mistakes and it is costing lives.
    Mr. Pyron. Well, one of the things that the OIG audit did 
laud us for is our safety programs. It said some good things 
about the way we do safety training in the OIG report. And we 
are not raiding our safety training dollars. In fact, we have 
safety training standards in the Forest Service that exceed 
those imposed by the National Wildfire Coordinating Committee. 
We hold ourselves to a higher standard than other folks. We are 
very much committed to doing that.
    Senator Cantwell. So you think the IG report and previous 
OSHA reports give you a good report card?
    Mr. Pyron. I did not say that. I said the IG report--let me 
just see if I can find it very quickly--said that the safety 
training aspect of it, in interviewing 80 different folks, that 
they lauded us on the quality of the training and generally 
said it was well done, this on safety training.
    It had the four areas that I mentioned before where we need 
to do better work on. We accept that and we are working to 
improve those areas. But a broad-based safety program is not 
focused on what is causing us the most trouble, and it is 
fighting fires, those transition fires that you had at Cramer, 
that you had at Thirtymile, and that you had at Storm King, 
where you have a Type 3 incident commander who is suddenly 
faced with a blowup in the fire and these folks are not 
adequately--we as an organization, not just the ICs, are not 
adequately responding to those changed conditions.
    We need to be focused on how we handle those situations, 
because that is where we are having our fatalities. It is not 
in fighting the Hayman Fire, the Biscuit Fire, huge fires. The 
Rodeo-Chediski Fire, my parents were evacuated because of that 
fire for a week and a half. It burned over 400,000 acres and we 
had no accidents.
    Senator Cantwell. I see we are on yellow here and my time 
may be expiring, but I am trying to understand. Now I get it, 
because we have asked Mr. Rey for these numbers before and he 
promised to get them to us and now we hear the agency is not 
going to get them to us or does not want to tell the public.
    If I could, because I do not have a lot of time, I want to 
follow up a question, which I am still amazed that the agency 
will not come up with the number that they spend generally on 
training.
    But according to a Seattle Times article on this 
investigation and a memo written by Joseph Ferguson, a deputy 
incident commander for the Forest Service, quote: ``If we do 
not improve the quality and the accountability of this program, 
we are going to kill a bunch of firefighters. Although there 
were two to three good to excellent crews on each fire, that 
was offset by 20 to 30 that were hardly worth having.'' 
Ferguson added, quote: ``It was apparent that training for most 
of these crews had been done poorly or not at all.''
    So we want to get this right. I guarantee you that me 
sitting up here, hearing after hearing, is not going to get it 
right, because I cannot create a culture. But we can track 
budgets and we can hold people accountable. Now we are hearing 
that the agency does not want to be held accountable to the 
amount of investment it is making within its agency, which I 
find amazing.
    Mr. Pyron. In the first place, we did come up with the 
figure of $30 million for the cost of the safety training. We 
are very uncomfortable with that number, but we worked really 
hard to come up with it. It has got a large variability.
    We do not have a problem with reporting what we spend on 
things if in fact we do not get distracted from what is really 
causing people to be at risk, which is the way we fight these 
transition fires. The part that I am trying to express is 
training folks to fight large fires or training folks for 
initial attack is not relevant to what is getting people in 
trouble. It is these transition fires.
    Senator Cantwell. I think it is very clear what is getting 
people in trouble, is that you have young crews who are not 
taught the discipline of issues such as making sure there are 
escape routes. That is exactly what happened in Thirtymile Fire 
and that is exactly what happened in Cramer. There were no 
identified escape routes for these individuals. So yes, that is 
the kind of training I am talking about, so that you do not 
have some really qualified crews and young kids who are 18, 19 
years old who are doing this because this is the way that they 
are going to make money and they are sure, they think that they 
are well trained, and then go out and find out that they are 
put in harm's way without these identifying factors that were 
the same factors identified in Colorado, in Washington, and now 
are happening in Idaho about not knowing the basics of escape 
routes and whether a situation is too dangerous to be in.
    Mr. Pyron. In the reality--I do not want to be 
argumentative, but the reality of the Colorado fire, Storm 
King, those were smokejumpers there. They were very, very well 
trained folks that got themselves in trouble. So it is 
something beyond simply saying that we have not trained people 
to properly identify escape routes. There is an issue there 
that we need to deal with and we are trying very diligently to 
do that.
    We are working--as I said before, the simulation exercise 
we are doing for Type 3 incident commanders to make sure that 
they have the decision-making skills to confront these changing 
environments is a huge step forward for the organization that 
came out of the Cramer Fire and our evaluation of where we were 
really falling down on the job.
    So I think we are in the same place, that we have got to 
make changes in the way we do it. We are just saying that 
measuring the amount of safety training across the entire 
firefighting organization is not going to produce the kind of 
results that you are seeking and we are seeking, which is to 
deal with these certain incidents or instances that are 
producing the fatalities we are facing.
    Senator Cantwell. I see my time has expired in this round, 
Mr. Chairman.
    Senator Craig. Well, thank you.
    Let me continue this line of questioning. I think it is 
important with the legislation at hand and with the issue and 
the Inspector General's report now out. Obviously we are 
greatly concerned about this, as our fire seasons become even 
more catastrophic. What is your explanation for 27 of the 81 
recommendations not being implemented yet? The Senator had 
mentioned that earlier. I note that was a last January effort. 
Could you tell us how many recommendations of the 27 
outstanding recommendations have been addressed since January?
    Mr. Pyron. I am going to turn to Tom. He has the specifics 
on that.
    Senator Craig. All right, please, Tom. Pull that forward, 
turn it out. Thank you.
    Mr. Harbour. Sir, 12 of those 27 have since been 
implemented and we have made substantial progress on the 
remaining 15.
    Senator Craig. When you say progress, what kind? What are 
you doing out there? Give the committee an example of the work 
at hand that is going to bring you in general compliance with 
that study.
    Mr. Harbour. Yes, sir. We went to each national forest 
through the regional offices of the Forest Service and asked 
each national forest to certify compliance with those 
outstanding items that had not been completed, and then 
aggregated those items back up to the national level.
    Senator Craig. With this report being done, with the 
concern Congress expressed and the obvious concern that I think 
is now beginning to be demonstrated by the Forest Service, we 
have just completed a fire season--well, I guess in parts of 
the country we are still in it, California and others. While 
most of those acreages that burned were in Canada--excuse me--
in Alaska, obviously we still had some critical fires in the 
lower 48.
    Based on what you know now and the work at hand and the 
training being done, what is your assessment of the 2004 fire 
season?
    Mr. Pyron. From the position that I serve in, I get 
confronted with mostly the things that go really wrong. This 
year we have not had those kinds of things like we had with 
Cramer, that were such a tragedy back in 2003. This year has 
been a year that has been remarkably free of those incidents 
for us. But it has also been a very much smaller fire year, 
too.
    We would like to attribute that success to some of the 
things we have done with the Type 3 incident commanders, but 
time will tell whether that has produced the outcomes that we 
are seeing.
    Senator Craig. In the Senator's legislation we are talking 
about accountability and being able to determine money spent. 
Give us an example of why you see that would be a problem? I 
mean, administrative problem, okay; what would it cost? What 
are we talking about here? Why can we not establish an ongoing 
figure as it relates to the kind of training being done so 
Congress can get some level of assessment from a dollars and 
cents standpoint?
    Mr. Pyron. I think we could work together if we were 
careful to define what we were costing out and that we reported 
those costs. I do not see us having a problem with that. What 
is difficult is just to have a blanket statement saying that, 
report the cost of safety training, when it is so, as I said 
before, so integrally involved in so much of the things that we 
do, and coming up with a number that is consistently aggregated 
that we can stand behind, that everybody does it the same way. 
It is one of the biggest problems we have in trying to cost out 
things across the organization, and we are working on some of 
that.
    The other problem we have with having the budget line item 
is our training costs change from year to year, and trying to 
predict them 2 years out is pretty difficult. One thing we 
would not want to have happen is having a training budget that 
we could not exceed when we do more in the area of training, 
just as we would not want to spend money on training folks when 
it was not really necessary just to hit a budgetary target.
    The reporting back is not as onerous, again if we define it 
appropriately, as it is just having this target in and of 
itself for how much training we are going to do.
    Senator Craig. I have been associated with firefighting and 
observed it, been around it, for a good number of years, and I 
have seen a significant improvement in training and talent and 
expertise. You still cannot forgive incidents of the kind that 
the Senator and I are concerned about.
    But I am also willing to accept the character of the fires 
you are talking about, phenomenally explosive under certain 
circumstances and nearly impossible to predict or to make 
determinations on.
    Give us a little more detail about the certification of a 
Type 3 incident commander? How did we assess those skills? What 
are we doing out there now to really bring a level of 
experience and professionalism into, if you will, the front 
line of these catastrophic environments?
    Mr. Pyron. I am going to turn to Tom on that.
    Mr. Harbour. Yes, sir. The recertification for our Type 3 
incident commanders consisted of bringing a cadre of skilled 
professionals at much higher technical levels together with a 
group of students and then putting them through a combination 
of either computerized training or what we have adapted from 
the Marine Corps, the sand table exercise, where we present the 
student with a situation and then assess their capability to 
respond.
    These simulations involve simulated radio traffic, 
situations that they were presented with as they would be 
presented on the ground, assessment by the cadre over a 6 to 8-
hour period, and then finally a face to face assessment with 
the student by the cadre of how they had done.
    Not everyone succeeded in becoming recertified and those 
that were most concerned about the lack of skills did not even 
attend the recertification.
    Senator Craig. I see my time is about up, but let me ask 
one more question, and I think you are the one that would need 
to respond to it. When will the Forest Service have completed 
its response to the recommendations of the IG report? What is 
your time line on that?
    Mr. Harbour. We believe, sir, that by the end of October we 
will have the bulk of these items completed, and certainly we 
will be working closely with the IG in the mean time.
    Senator Craig. ``The bulk of them'' meaning all 81?
    Mr. Harbour. Yes, sir.
    Senator Craig. Senator.
    Senator Cantwell. Thank you, Mr. Chairman.
    I would like to talk about the training in general, because 
I am assuming that you also object to reporting on the 
effectiveness of training, which is the second provision of the 
bill. But if you do not, if that is not your major objection, 
you can say so in the answer to this question.
    I am concerned about the Inspector General's report, where 
they found, quote, ``documentation missing to support 
firefighters' qualifications.'' In particular for 65 of the 80 
sample firefighters, which was about 81 percent, the IG was 
unable to locate sufficient documentation to support their 
position and qualifications. Quote: ``Without supporting 
documentation, we cannot provide adequate assurance that all 
firefighters have required training, skills and experience to 
perform the jobs which they have been issued credentials for.''
    What is your comment about that Inspector General criticism 
of the number of people that were missing credentials and what 
skill level they had actually been--they have been able to 
achieve?
    Mr. Pyron. From my perspective, I am reasonably confident 
that most of those folks had the skills that we thought they 
had. But what we obviously have learned from this is we are 
doing a pretty bad job of documenting that, and without the 
documentation it does not matter whether they have done that or 
not. So we are working very diligently to acquire that 
documentation and only let those folks serve in those red-
carded positions that can demonstrate that they have the 
documentation to support their qualifications.
    Mr. Harbour. Senator, if I may, using myself as an example: 
nine different moves in my Forest Service career over 34 years, 
moving from a firefighter on the ground to a Type 1 incident 
commander and area commander. I have gone through an iteration 
of not only the naming and numbering of these courses, but an 
iteration of the location at various district and 
administrative offices of the records of the training that I 
have kept.
    So in some cases it is simply a lack of the documentation 
or the lack of ability as we have gone through four different 
systems in the 34 years I have been acquainted with 
firefighting to move those records from one system and one 
location to another. We are attempting, based on the IG report, 
to go back and make certain that the documentation standards 
are met as per the IG's advice.
    Mr. Pyron. We have committed ourselves to having this done 
by May 2005.
    Senator Cantwell. So you think there is no issue where 
individual firefighters were not adequately trained; they just 
did not have credentials?
    Mr. Pyron. There may be instances of where that happened. 
But as a systemic problem, I do not think that is the case. But 
there may be an isolated instance somewhere.
    But by complying with the OIG recommendation here, we are 
going to go back for every single firefighter and make sure 
that that documentation is available so we do not have that 
problem at all.
    Senator Cantwell. The IG report was also very big on 
performance standards, basically that the Forest Service did 
not have a performance standard for firefighting safety, 
specifically the fire safety performance, underscore, what are 
called individual responsibilities and accountability for the 
firefighting practices. What is your understanding about what 
the agency is doing to improve those standards?
    I think what we have seen from Storm King, Thirtymile, and 
now Cramer is a list of things that people do not--every 
hearing is the same: We are working on them, we are improving. 
And then we come back to the same, the recommendations, which I 
could have here, are very similar. So I think what the Forest 
Service, Thirtymile on one side and Cramer on the other, same 
recommendations. So years pass, then you see the same 
recommendations.
    I think what the IG report is saying is that you have to 
have performance standards so that you know exactly what these 
requirements mean and when they are being violated. Otherwise 
you do not really know whether someone is able to achieve those 
goals. We always hear that, we are working on it, but we still 
come back to incidents involving escape routes.
    Mr. Pyron. Let me return to your basic question, but I want 
to respond to the second part of that first. We are doing 
things differently than we have in the past. The sandbox 
exercise and the simulation is a totally new approach to try to 
deal with something that we think has real promise for 
increasing the capability and the competency of our Type 3 
incident commanders. And we have done that. We did it for 1,068 
ICs. So that is not saying we are working on it. It is 
something we have done.
    Senator Cantwell. An ``IC'' is?
    Mr. Pyron. Incident commander, on a Type 3 fire, which was 
the kind of fire that we had at Storm King or at Thirtymile or 
Cramer.
    My point is this is not all prospective. We are doing 
things now. But we are also trying to work outside of the box 
for the first time and look to organizations like the JFK 
School of Government to help us think about the way we are 
thinking about these things. We have gone to the military, the 
Marines, to look at how they deal with these kind of 
situations, to make sure that we are not missing something 
because we are locked in our view of how the world should work.
    We are doing those things. But as it relates to the first 
part of your question, the answer is the Forest Service has 
issued performance standards that were responsive to the 
recommendation for forest supervisors, district rangers, and 
fire program managers and supervisors, and the OIG position has 
been to accept the Forest Service management decision on this 
point. So I think we have completed that.
    Senator Cantwell. You think performance standards now are 
in place?
    Mr. Pyron. They are.
    Senator Cantwell. What are they?
    Mr. Harbour. Senator, in late May we issued performance 
standards. Chris and the Chief issued those performance 
standards, and the regions certified by the end of June that in 
fact those performance standards for fire program managers, 
line officers, are in place. We can provide a copy of those.
    Senator Cantwell. That would be great. So the IG report 
that was issued basically saying they need performance 
standards for firefighter safety, you think that they somehow 
missed those or the timing did not correspond?
    Mr. Pyron. I think when they issued the report we had not 
completely fulfilled that obligation in every circumstance. 
There was some percentage that we had not done it yet. What we 
have done since then is gone back and made sure we had 
compliance for 100 percent.
    Senator Cantwell. I see my time is up again, Mr. Chairman.
    Senator Craig. If you have some more questions, please 
continue for a few moments.
    Senator Cantwell. Thank you, Mr. Chairman.
    Well, we certainly would like a copy of the performance 
standards.
    Mr. Pyron. We will provide that.
    Senator Cantwell. Then the third issue of the legislation 
that we have been proposing is basically taking the private 
contractors and treating them with the same kind of training as 
the Federal wildland firefighters. What is your objection to 
that?
    Mr. Pyron. I think right now--well, in the first place, the 
bill requires that we do that. We do that as a matter of course 
now. It is a requirement of the contracts that they meet the 
training standards contained in the National Wildland Fire 
Coordinating Committee.
    Senator Cantwell. The private contractors do?
    Mr. Pyron. The private contractors do, correct.
    Senator Cantwell. They receive the same amount of training?
    Mr. Pyron. That they have to have the same qualifications, 
which requires the training, that we require of our 
firefighters across the board.
    Senator Cantwell. But are we not talking about the 
difference between somebody being trained for a couple of weeks 
versus a long period of time?
    Mr. Pyron. Which all depends on which job you are 
fulfilling in the fire organization. I mean, our entry level 
firefighters have less training than somebody who is a crew 
boss or a squad boss or that kind of stuff. It depends on the 
position that you are in, and they have to meet the 
qualifications to hold those positions.
    Now, what we are working on is we have a requirement, but 
our contract administration has got to be beefed up to make 
sure that they are living up to those requirements. We have 
been working very closely with the Oregon Department of 
Forestry, which is actually the contractor for most of these 
crews, to help us to ensure that they are meeting the 
qualification standards that we are contracting for, that they 
have the training that we are contracting for, they have the 
experience that we are contracting for.
    One of the things that the audit report found is that we 
are making good strides in that area and they found no reason 
to believe that we were not going to be successful in doing 
that. That was a finding in the audit report.
    Senator Cantwell. So what do you object to then in that 
last section of the bill?
    Mr. Pyron. The way the bill is written--and explain to me 
if I have got it wrong--you are saying that--the bill says that 
the contractors should live up to the standards. We agree with 
that. And you are saying that we should have a system in place 
to ensure that that happens. We agree with that.
    I think that is good common sense. There is no reporting 
requirements that I am aware of in there. So as that is written 
we would not object to that part of the bill, unless I am 
missing something.
    Senator Cantwell. Thank you, Mr. Chairman.
    Senator Craig. Any further questions?
    Senator Cantwell. No. Thank you, Mr. Chairman.
    Senator Craig. Well, let me thank both agencies for being 
here today. I am pleased to hear that there is substantial 
progress in firefighter training. Obviously it is of great 
concern, and we in the lower 48 lucked out this year with a 
wetter season than planned or we would have been plunged into 
another catastrophic fire scenario that, unless we have highly 
skilled and trained people on the ground, is going to put 
people at risk in these environments.
    At the same time, it is a close call--I think we all 
understand that--between putting people at risk and when you 
have a human structure in the path of a fire, attempting to get 
in there and save that structure versus backing crews out and 
saying, no, that is a place no one should go. That is a 
constant balance of force, but it is also a constant reminder 
that you are going to have to have quality, skilled people on 
the ground making those kinds of judgments as it relates to 
putting firefighters in harm's way versus doing what they are 
trained effectively to do.
    That is why I think you are seeing this concern expressed, 
this legislation being offered, as we adapt to and bring the 
level of quality and training and experience up and the 
procedural mechanisms necessary to ensure it as these fire 
scenarios have significantly changed.
    We thank you all for being with us and I have already 
mentioned we will leave the record open for a period of time. 
The subcommittee will stand adjourned.
    [Whereupon, at 3:54 p.m., the hearing was adjourned.]



                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

                        Department of the Interior,
           Office of Congressional and Legislative Affairs,
                                 Washington, DC, November 10, 2004.
Hon. Larry E. Craig,
Chairman, Subcommittee on Public Lands and Forests, Committee on Energy 
        and Natural Resources, U.S. Senate, Washington, DC.
    Dear Mr. Chairman: Enclosed are responses to questions submitted 
following the September 29, 2004, hearing on S. 2378, H.R. 2400, H.R. 
3874, H.R. 4170 and S. Res. 387.
    Thank you for the opportunity to provide this material for the 
record.
            Sincerely,
                                             Jane M. Lyder,
                                               Legislative Counsel.
[Enclosures.]
                      Questions From Senator Craig
    h.r. 2400, to amend the organic act of guam for the purposes of 
            clarifying the local judicial structure of guam
    Question 1. Locally, Guam has enacted a law that already designates 
the Supreme Court as the highest court in the territory. Is it the 
Department of the Interior's position that a federal amendment to 
Guam's Organic Act is necessary to solidify an independent judicial 
structure in Guam?
    Answer. Given the history of the Supreme Court of Guam, the short 
answer is ``Yes.''
    In 1984, the Congress authorized the Legislature of Guam to 
establish an appellate court for Guam's local judiciary. Each of the 
fifty state court systems in the United States is structured with a 
unified hierarchy. Consistent with the authority granted by the 
Congress, the Legislature of Guam established a Supreme Court. Shortly 
thereafter, the Legislature shifted authority from the Supreme Count to 
the Superior Court of Guam, creating a bifurcated system.
    At the time the Congress granted appellate court authority to the 
Legislature of Guam, no one contemplated that the Legislature of Guam 
would tinker with the jurisdiction of the appellate court (i.e., 
Supreme Court of Guam) in order to satisfy political ends. Politics, 
however, has played a major role in the shifting of responsibilities 
within the judiciary of Guam.
    Traditionally, the tripartite structure of government is 
established in the foundation document of that government. For the 
United States and the fifty states, all three branches of government, 
including the courts, are found in their respective constitutions. The 
foundation document for Guam is the Organic Act of Guam. The Organic 
Act makes provision for the legislative and executive branches, but 
only contains authority for establishing an appellate court. The 
Organic Act does not establish the appellate court or Supreme Court, 
per se. H.R. 2400 would accomplish the task by placing the structure of 
the judiciary of Guam in the Organic Act of Guam, i.e., on a par with 
the legislative and executive branches of Guam
    Question 2. Why are all the parties--the Governor, the Legislature, 
and the Judicial Council of Guam--now supportive of this legislation? I 
believe this was not always the case.
    Answer. In previous years, political divisions on Guam pitted 
various Guam institutions against each other on the issue of Supreme 
Court authority. These differences now appear to have been resolved. 
Direct communication with the Governor, Legislature and Judicial 
Council would be the best way to elicit specific reasons for changes in 
their positions on the issue.

S. 2378, TO PROVIDE FOR THE CONVEYANCE OF CERTAIN PUBLIC LANDS IN CLARK 
                 COUNTY, NEVADA, FOR USE AS A HELIPORT
    Question 1. What is the estimated value of the land to be conveyed 
in this bill?
    Answer. These lands have not been appraised, but based on 
comparable land sales in the area from June 2, 2004, land sales 
receipts, the lands could sell for approximately $248,000/acre. The 
value of the 229 acres proposed for conveyance is estimated at 
approximately $56 million.
    Question 2. In your testimony, you indicated that there is an 
administrative process for authorizing a heliport. What is involved in 
this process? What would the rental cost be?
    Answer. The BLM could enter into a long-term lease with the County 
through authority provided in Section 302 of the Federal Land Policy 
and Management Act. This section allows the Secretary to authorize a 
lease to entities for the use and development of public lands for 
commercial purposes. It also requires the entity to pay a rental fee 
based on the market value of the lands. The application and approval 
procedures are outlined in 43 CFR Part 2920.\1\
---------------------------------------------------------------------------
    \1\ A copy of the regulation has been retained in subcommittee 
files.
---------------------------------------------------------------------------
    An individual or entity wishing to lease BLM land for a commercial 
purpose is required to submit an application and an application fee to 
the BLM. If the purpose of the lease complies with BLM land use plans 
as determined by a BLM review, the application is processed and NEPA 
and other resource clearances are initiated. An appraisal on the land 
is done to determine the rental fee, which is based on fair market 
value. A Notice of Realty Action is published for public comment in the 
``Federal Register'' and a publication of local interest. Final 
decisions to issue a permit are subject to protest and appeal.
    Question 3. Are there alternative sites available for a heliport?
    Answer. We are aware of ongoing discussions with the sponsors of 
the legislation and various interests in Nevada to resolve this issue. 
We have not been directly involved with these discussions but we are 
always happy to work with the sponsors and the Committee to determine 
alternative locations.
 h.r. 3874, to convey for purposes certain federal lands in riverside 
       county, california, that have been identified for disposal
    Question 1. What is the estimated value of the land to be conveyed 
in this bill?
    Answer. We have not completed an appraisal for this property. 
However, based on preliminary estimates and comparable values we can 
give a general estimate for the 44 acre parcel of $1.3 million.
    Question 2. What values or uses are these lands currently being 
managed?
    Answer. These lands are currently being used for the placement of 
two water wells and an electrical power line under BLM rights-of-way 
grants. These lands are also used as open space by residents in the 
area.

   H.R. 4170, TO AUTHORIZE THE SECRETARY OF THE INTERIOR TO RECRUIT 
  VOLUNTEERS TO ASSIST WITH, OR FACILITATE, THE ACTIVITIES OF VARIOUS 
         AGENCIES AND OFFICES OF THE DEPARTMENT OF THE INTERIOR
    Question 1. I am told that this is a priority for Secretary Norton. 
From the looks of it, it make sense to provide all agencies in the 
Department of the Interior with similar authority to utilize 
volunteers.
    Question 2. Can you help us understand why, if this is a priority, 
it has not been introduced in the Senate and why it was only introduced 
in the House of Representatives on July 20th of this year?
    Answer. As noted in our testimony, the Department of the Interior 
is a leader in the federal government in providing opportunities for 
volunteer service. While we have been aware of deficiencies in 
volunteer authorities for some of our bureaus for some time, developing 
appropriate language that would ensure against any disruption of 
existing volunteer programs and would satisfy the concerns of other 
agencies of the Federal government was not an easy task. The Department 
of the Interior has been working with other Federal agencies since the 
beginning of this Administration to develop language that satisfies the 
Administration's concerns and ensures an appropriate legal framework 
for our volunteers. The provisions in the current bill reflect the 
consensus that was reached.
    The bill was introduced in the House on April 20th of 2004. 
Secretary Norton and Congressman Richard Pombo co-authored an op-ed 
that appeared in the San Diego Union-Tribune on April 9th of 2004 
explaining the goal of the legislation to secure the place that 
volunteers have in helping the Department of the Interior serve 
Americans. When the bill passed the House Committee on Resources, the 
Secretary issued a press release expressing her support for the bill 
and reiterating that ``Volunteers are highly valued and are very 
important to our ability to do more in our service to the American 
people.'' \2\ H.R. 4170 passed the House on July 19th. As the Senate 
Committee on Energy and Natural Resources considers this bill, the 
Department of the Interior would like to reiterate our support. We hope 
that it will garner the same enthusiasm from the Senate that it has 
received from the House.
---------------------------------------------------------------------------
    \2\ The op-ed and press release have been retained in subcommittee 
files.
---------------------------------------------------------------------------

   SENATE RESOLUTION 387, COMMEMORATING THE 40TH ANNIVERSARY OF THE 
                             WILDERNESS ACT
    The Department of the Interior did not testify on Senate Resolution 
387.
                    Questions From Senator Bingaman

                           REGARDING S. 2410
    Question. For each of the last ten years, how many Department of 
the Interior employees were formally qualified to fill wildland fire 
positions?

                                               TOTAL EXPENDITURES
                                              [Millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                          BLM         BIA         NPS         FWS      DOI Total
----------------------------------------------------------------------------------------------------------------
1996................................................     3,535         708       3,105         599       7,947
1997................................................     3,671         674       2,604         615       7,564
1998................................................     3,989         943       3,284         810       9,026
1999................................................     4,088       1,623       3,686         982      10,379
2000................................................     3,832       2,372       2,721         824       9,909
2001................................................     4,352       3,416       3,007         984      11,759
2002................................................     5,219       5,506       3,253       1,144      15,122
2003................................................     5,453       5,973       3,470       1,221     16,117
----------------------------------------------------------------------------------------------------------------
Note: Due to system and data-tracking changes, data responding to this request only dates back to 1996. These
  numbers also include some Emergency Firefighters and others ``red carded'' and hired on an incident basis, but
  not carried on the rolls as DOI employees. For 2004, all DOI agencies are in the process of converting fire
  qualifications data to the new Incident Qualifications and Certification System (IQCS), which was deployed in
  July 2004. Until the data is fully converted and updated, we are unable to ascertain the exact number of
  employees who currently hold red cards for fire duty.

                           REGARDING S. 2378
    Question 1. What is BLM's estimate of the increase in frequency of 
flights over the North McCullough Wilderness Area and Sloan Canyon 
National Conservation Area that would result from implementation of 
this bill?
    Answer. There are no scheduled tourist helicopter flights over 
Sloan Canyon NCA at this time. Air traffic over the NCA consists of 
higher elevation jet traffic on approach to or take-off from McCarran 
International Airport and intermittent small, fixed-wing aircraft 
flying in and out of the Henderson Executive Airport, which is just 
north of Sloan Canyon NCA. If the proposed heliport is built, it is 
estimated that there would be 180 helicopter overflights, or 90 round-
trips per day over the NCA.
    Question 2. Your testimony refers to the ``high market value'' of 
the lands to be conveyed. What is the estimated value of the land?
    Answer. These lands have not been appraised, but based on 
comparable land sales in the area from June 2, 2004, land sales 
receipts, the lands could sell for approximately $248,000/acre. The 
value of the 229 acres proposed for conveyance is estimated at more 
than $56 million.

                          REGARDING H.R. 3874
    Question 1. Does the bill preclude for-profit use of the property 
to be conveyed?
    Answer. H.R. 3874 states that the lands conveyed under this bill 
are to be used ``to provide a homeless shelter, a training center, and 
affordable housing.'' Section 1(c) of H.R. 3874 states that if the 
lands are not used for the purposes set forth in the bill, then the 
lands revert to the United States. The legislation does not directly 
address nonprofit versus for-profit enterprises.
    Question 2. What is the estimated value of the property?
    Answer. We have not completed an appraisal for this property. 
However, based on preliminary estimates and comparable values we can 
give general estimate for the 44 acre parcel of $1.3 million.
   Questions for the Record for Delegate Bordallo Regarding H.R. 2400
                    Questions From Senator Bingaman
    Question 1. During the 107th Congress, the House and Senate 
considered H.R. 521 and S. 2823, the precursors to H.R. 2400. However, 
final action was blocked by opposition from Guam. Please explain what 
factors were behind that opposition and why they are not factors this 
year.
    Answer. I believe this question as well as others that relate to 
consideration of H.R. 521 during the 107th Congress can best be 
answered by my predecessor, Congressman Robert A. Underwood. I 
understand, as you have noted, that in 2002 some unfavorable views on 
H.R. 521 were received and entertained by the House Committee on 
Resources as well as possibly by the Senate Committee on Energy and 
Natural Resources. The House Committee on Resources held a legislative 
hearing on H.R. 521 in Washington, D.C. on May 8, 2002, during which 
the Honorable F. Philip Carbullido, the Acting Chief Justice of the 
Supreme Court of Guam, and the Honorable Alberto C. Lamorena, III, the 
Presiding Judge of the Superior Court of Guam, testified. Statements 
from several other leaders in Guam were received by the House Committee 
on Resources. This testimony is a part of the hearing transcript. Some 
of the testimony received indicated that opponents would prefer that 
this issue be addressed in a Guam Constitution. However, advocates 
point out that the process to draft and ratify a Constitution would be 
lengthy and that the need to address this issue is immediate and 
significant. I believe earlier stated opposition to the legislation 
became moot and concerns assuaged when the Guam Legislature amended the 
Guam Code on October 31, 2003, to unify and reorganize the judiciary of 
Guam (Guam Public Law 27-31). This Act of the 27th Guam Legislature 
reorganized the judiciary in a manner consistent with H.R. 2400. Guam 
Public Law 27-31 recognizes and empowers the Supreme Court of Guam as 
the highest court of Guam. H.R. 2400 ensures that the Supreme Court of 
Guam and a unified judiciary is not subject to future adverse actions 
of the legislature. H.R. 2400 would solidify the changes made by Guam 
Public Law 27-31 in the Organic Act of Guam to ensure the continued, 
uninterrupted functioning of an efficient, unified, and independent 
judicial branch of local government for the people of Guam.
    Question 2. It is unusual for territorial governments to petition 
Congress to limit their scope of self-government, as H.R. 2400 would 
do. What is the reason that the Government of Guam requests this 
limitation?
    Answer. In his June 5, 2003, letter requesting the re-introduction 
of H.R. 521, the Honorable F. Randall Cunliffe, Chairman of the 27th 
Guam Legislature's Committee on Judiciary and Transportation, states 
that the legislation ``is necessary to protect Guam's local judiciary 
from infringement from the other branches of our government.'' Without 
the Organic Act amendment the judiciary in Guam will be left vulnerable 
to local politics and undue political interference. Recent developments 
in Guam have emphasized the need for H.R. 2400 inasmuch as the Supreme 
Court of Guam has rendered judgments on local disputes between 
different branches and elected officials of the Government of Guam. 
H.R. 2400 is a practical solution until Guam embarks on a process to 
draft and ratify a Constitution. H.R. 2400 empowers the judiciary by 
establishing separation of powers for the three branches of government 
in the Organic Act of Guam, and by correcting the oversight of the 1984 
Omnibus Territories Act (Public Law 98-454) H.R. 2400 strengthens 
Guam's self-government. H.R. 2400 firmly establishes a unified 
judiciary in Guam with a Supreme Court equivalent in authority to 
Supreme Courts established in the 50 States. I do not view H.R. 2400 as 
a limitation on self-government. The Organic Act of Guam is the de 
facto constitution of Guam. This amendment to the Organic Act, while 
setting limitations, is a limitation within a constitutional framework 
on the powers of the other branches of government, just as the United 
States Constitution, in establishing a tripartite form of government 
limits, through checks and balances, the powers of each branch of 
government.
    Question 3. Can you can assure the Committee that enactment of H.R. 
2400 is supported by a consensus of the government, courts, and 
legislature of Guam?
    Answer. I can assure the Committee that favorable views on H.R. 
2400 have been expressed and received from leaders in every branch of 
the Government of Guam. Many of these views have been transmitted to 
Congress. I have submitted several documents that testify to the 
unified support for the principles of this legislation for the 
Committee's record.
    It is important to note that the 27th Guam Legislature took action 
on October 31, 2003, with the enactment of Guam Public Law 27-31, to 
establish the Supreme Court of Guam as the highest court with 
administrative control over the judiciary in the territory. 
Additionally, on April 23, 2004, the 27th Guam Legislature adopted a 
resolution (Resolution No. 139), sponsored by all 15 of its members, 
that requests Congress to ``expeditiously and favorably pass H.R. 
2400'' to amend the Organic Act to reflect the changes made by Guam 
Public Law 27-31.
    Furthermore, on May 6, 2004, the Judicial Council of Guam, 
comprised of the justices and judges of the Supreme Court of Guam and 
the Superior Court of Guam, adopted a resolution that also requests 
Congress to pass H.R. 2400.
    Moreover, the Honorable Felix P. Camacho, the Governor of Guam, has 
written to me in support of H.R. 2400. In his letter of May 7, 2004, he 
states that it is his ``personal preference'' for a ``tripartite 
structure of government to be established in a Guam Constitution.'' 
However, he states that until Guam adopts its own constitution, he 
supports the efforts to establish Guam's judicial branch in the Organic 
Act.
    The support for H.R. 2400 from local government leaders in Guam is 
further evidenced by the presence of the Honorable Kaleo S. Moylan, the 
Lieutenant Governor of Guam, at this hearing and in his statement for 
the record.
    All of these actions and communications testify to the broad 
support H.R. 2400 has received among stakeholders and local leaders in 
Guam. In addition to government leaders, the Guam Bar Association has 
been firm in its support for the legislation.
    Question 4. Are you aware of any significant opposition to H.R. 
2400, and if so, by whom and for what reasons?
    Answer. I introduced H.R. 2400 at the request of the Honorable F. 
Randall Cunliffe, Chairman of the 27th Guam Legislature's Committee on 
Judiciary and Transportation, on June 10, 2003. I have not received any 
opposing views relating to H.R. 2400. Again, I would reiterate that the 
local dispute regarding the authority of the Supreme Court over the 
Superior Court and the entire judicial branch of the Government of Guam 
has been settled by local law. Opponents to H.R. 521 in the 107th 
Congress have accepted and come to recognize that the Guam Legislature 
has taken the view that a unified judiciary is in Guam's best interest. 
H.R. 2400 enjoys bipartisan support in Guam. The Republican Governor 
and Lieutenant Governor, and the Democrat-controlled 27th Guam 
Legislature are all in support of this legislation.
    Questiion 5. I understand that Mr. Jack Abramoff was the lobbyist 
hired to block enactment of this bill in the last Congress. As you may 
know, he is now under investigation by the Senate Committee on Indian 
Affairs and by the Justice Department for possible illegal activity. Is 
there any reason to believe that his activities in Guam may have 
involved any illegal activity that should also be investigated?
    Answer. I do not have first-hand knowledge of Mr. Abramoff's 
activities with regard to this issue. It is accurate that both the 
Supreme Court of Guam and the Superior Court of Guam retained the 
services of consultants on this issue. Mr. Abramoff signed a lobbying 
registration form that was filed with the Secretary of the Senate on 
June 20, 2002, and that lists an attorney contracted by the Superior 
Court of Guam as his client. This registration on file with the 
Senate's Office of Public Records indicates Mr. Abramoff was retained 
to lobby on ``public policies related to issues of judicial and legal 
structures for states and possessions.'' He also signed a mid-year 
report that was filed on August 14, 2002, and a year-end termination 
report that was filed on February 3, 2003, for this client. Both of 
these reports identify H.R. 521 by bill number as the specific lobbying 
issue and specify both the House and the Senate as contacts. Together 
these reports indicate $540,000.00 was received by Mr. Abramoff's firm 
to lobby on this issue in 2002. Local media in Guam have reported on 
the manner of payments made to consultants and lobbyists on this issue. 
These reports also indicate that the Supreme Court of Guam paid its 
consultant $80,000.00 from its budget for contractual services.

                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                            Office of the Governor of Guam,
                                        Hagatna, Guam, May 7, 2004.
Hon. Madeleine Z. Bordallo,
Congresswoman, U.S. House of Representatives, Washington, DC.
    Dear Madeleine: This letter is written in reference to H.R. 2400, a 
bill to amend the Organic Act of Guam for the purposes of clarifying 
the local judicial structure of Guam.
    As I stated in previous testimony in reference to a similar bill 
introduced by your predecessor in the 107th Congress, ``I certainly 
support the independence of all branches of government, inclusive of 
the judicial branch of Guam.'' As the Chief Executive of our Territory, 
I certainly appreciate our tripartite form of government which was 
crafted by the founders of our great nation and unanimously adopted by 
the states of our union. I fully recognize that the effectiveness of 
our system of government, both on the federal and local level, rests in 
checks and balances. To this end, I recognize that the judicial branch 
of our Territory, like our executive and legislative branches, must be 
``constitutionally'' established or in our case, have an ``Organic'' 
existence with similar powers to govern, reorganize, manage and account 
for its branch with judicial independence founded under our U.S. 
Constitution. To the extent H.R. 2400 furthers this principle, I am 
supportive of your efforts and the assistance of your colleagues.
    My personal preference is for our tripartite structure of 
government to be established in a Guam Constitution. Further, the 
specifics of the internal operation of our judicial branch should be 
established locally. However, I am cognizant that since I submitted my 
previous testimony to Congress on this issue, local law affecting the 
Guam judiciary has changed. In addition, until Guam adopts its own 
constitution, the Organic Act functions as Guam's de facto 
constitution. For these reasons, I support your efforts to establish 
Guam's judicial branch in our Organic Act.
            With Warm Personal Regards,
                                          Felix P. Camacho,
                                                  Governor of Guam.
                                 ______
                                 
                 Office of the Lieutenant Governor of Guam,
                                 Hagatna, Guam, September 29, 2004.
Hon. Peter V. Domenici,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.

Re: H.R. 2400: To amend the Organic Act of Guam for the purpose of 
clarifying the local judicial structure of Guam.

    Dear Mr. Chairman and Members of the Senate Committee on Energy and 
Natural Resources: For the Committee record I am Kaleo S. Moylan, 
Lieutenant Governor of Guam. At the onset, let me offer a sincere 
appreciation for this opportunity to express our support for H.R. 2400. 
The purpose of H.R. 2400 is to amend the Organic Act of Guam for the 
purposes of clarifying the local judicial structure in Guam.
    Mr. Chairman, H.R. 2400 amends the Organic Act of Guam to establish 
the Supreme Court of Guam as the highest local court in Guam. 
Furthermore, it also amends the Organic Act to require a unified 
judicial system composed of:

  <bullet> An appellate court designated as the `Supreme Court of 
        Guam';
  <bullet> A trial court designated as the `Superior Court of Guam'; 
        and
  <bullet> Other lower local courts as may have been or may hereafter 
        be established by the laws of Guam.

    Originally, appellate cases in Guam that fell under territorial 
jurisdiction were reviewed by the U.S. Court of Appeals for the Ninth 
Circuit. In 1973, the 12th Guam Legislature established the first 
Supreme Court of Guam to hear these appealed cases. The establishment 
of the court was ruled to be unauthorized by the U.S. Supreme Court in 
Territory of Guam v. Olsen, 431 U.S. 195 (1977). Congress, in response 
to the Olsen case, amended the Organic Act of Guam (1984) authorizing 
the Guam Legislature to create an appellate court to hear all cases in 
Guam over which any court established by the Constitution and laws of 
the United States does not have exclusive jurisdiction.
    In 1992 when the Guam Legislature passed legislation to create the 
Supreme Court of Guam, it intended to make this entity the highest 
local court and vest it with those powers traditionally held and 
exercised by the highest court of a State or territory.
    In authorizing the creation of an appellate court for Guam, the 
Congress left the newly created court subordinate to Guam's other two 
branches of government. Because the judiciary was established under 
Guam law, it can be subject to changes based upon shifts in control of 
Guam's executive and legislative branches. Establishing the Supreme 
Court of Guam within Guam's Organic Act will make the judiciary a 
coequal branch of government. H.R. 2400 corrects the unintended 
oversight of the Omnibus Territories Act of 1984 (Public Law 98-454) 
and insulate the judiciary in Guam from local politics and undue 
political interference. More importantly, it removes any uncertainty 
regarding future actions that threaten to undo the clarity of roles 
established by local statute.
    Recent developments in Guam have emphasized the need for H.R. 2400 
in as much as the Supreme Court of Guam has rendered judgments on local 
disputes between different branches for the Government of Guam and 
between elected officials in the territory. In the 107th Congress, 
there was local opposition; however, the Guam Legislature subsequently 
took action with the enactment of Public Law 27-31, which established 
the Supreme Court of Guam as the highest court with administrative 
control over the judiciary in the territory.
    In closing, let me just reiterate that the 27th Guam Legislature, 
has adopted Resolution No. 139, sponsored by all 15 of its members, 
expressing their support of H.R. 2400. Also, the Governor of Guam in a 
letter to Congresswoman Bordallo has expressed his support to.
            Thank You and ``Dangkulo na Si Yu'us Ma'ase para todus 
            hamyu!''

                                           Kaleo S. Moylan,
                                       Lieutenant Governor of Guam.
                                 ______
                                 
  National Landscape Conservation System Coalition,
                                c/o The Wilderness Society,
                                Washington, DC, September 29, 2004.
Hon. Larry E. Craig,
Chairman, Subcommittee on Public Lands and Forests, Committee on Energy 
        and Natural Resources, U.S. Senate, Washington, DC.
    Dear Senator Craig: As members of a coalition that seeks to protect 
and enhance the National Landscape Conservation System (NLCS), we urge 
you to amend S. 2378, legislation which would subject Sloan Canyon 
National Conservation Area to frequent helicopter overflights. We would 
like to submit the following comments regarding S. 2378 to the Senate 
Subcommittee on Public Lands and Forests as part of the official record 
of the hearing scheduled for 29 September 2004.
    When designated a National Conservation Area in 2002, Sloan Canyon 
became the newest addition to the National Landscape Conservation 
System (NLCS). The NLCS is comprised of 26 million acres of spectacular 
Western landscapes managed under the auspices of the Bureau of Land 
Management. NLCS National Monuments and Conservation Areas harbor 
irreplaceable natural, cultural, and scientific treasures, like Sloan 
Canyon's 1,700-plus petroglyphs and its bighorn sheep.
    In addition to protecting the physical resources of these large 
western landscapes, the National Landscape Conservation System is 
intended to help safeguard the remote, wild character of Sloan Canyon, 
and of other sites ranging from to Arizona's Grand Canyon-Parashant 
National Monument, to California's King Range. In the face of 
increasing urbanization, the NLCS and wild, quiet places like Sloan are 
tremendously important to Americans nationwide. Solace and solitude are 
rapidly dwindling commodities, even within many of our public lands.
    Accordingly, legislation that would route helicopter overflights at 
intervals of 1-10 minutes every day over Sloan Canyon fundamentally 
undermines the concept of the National Landscape Conservation System. 
Such legislation would destroy the special quiet character of this 
National Conservation Area and the 17,000 acres of wilderness it 
contains--quiet that is a treasure, given the area's proximity to Las 
Vegas. Helicopter overflights could also increase stress on the local 
bighorn sheep population. Modifying S. 2378 to utilize the Sunrise 
Landfill site for the heliport, and directing flights away from Sloan 
Canyon, would be a far better choice--one that minimizes conflicts with 
residents, conservationists, historic preservation advocates, wildlife, 
hikers, and others.
    Sloan Canyon is a national treasure, of concern to our wide array 
of organizations from across the country and our millions of members 
who believe in protecting America's ecological, cultural, and historic 
heritage in the National Landscape Conservation System. Like all the 
lands in the NLCS, Sloan Canyon should remain a place where Americans 
can enjoy peace, quiet, wildlife, and cultural history without the 
visual or aural intrusion of helicopter noise.
            Sincerely,
                    Kelly Burke, Executive Director, Grand Canyons 
                            Wildlands Council; Amber Clark, Public 
                            Lands Coordinator San Juan Citizens 
                            Alliance; Larry Copenhaver, Conservation 
                            Director, Montana Wildlife Federation; Jim 
                            DiPeso, Policy Director, Republicans for 
                            Environmental Protection; Gerry Jennings, 
                            President, Montana Wilderness Association; 
                            Don Hoffman, Director, Arizona Wilderness 
                            Coalition; Emily Kaplan, Public Lands 
                            Advocate, U.S. Public Interest Research 
                            Group; Bill Martlett, Executive Director, 
                            Oregon Natural Desert Association; Chuck 
                            McAfee, Founder, Friends of the Monument 
                            (Canyons of the Ancients); Sean McMahon, 
                            Senior Policy Specialist for Land 
                            Stewardship, National Wildlife Federation; 
                            Maribeth Oakes, Director, Lands Protection 
                            Program Sierra Club; Bill Patterson, 
                            Western Colorado Congress; Tom Robinson, 
                            Director of Government Affairs, Grand 
                            Canyon Trust; Wendy Van Asselt, NLCS 
                            Project Director, The Wilderness Society; 
                            and Dave Willis, Chair, Soda Mountain 
                            Wilderness Council.
                                 ______
                                 
              International Mountain Bicycling Association,
                                      Boulder, CO, October 1, 2004.
Hon. Larry Craig,
Chair, Subcommittee on Public Lands and Forests, Committee on Energy 
        and Natural Resources, U.S. Senate, Washington, DC.
Hon. Ron Wyden,
Ranking Member, Subcommittee on Public Lands and Forests, Committee on 
        Energy and Natural Resources, U.S. Senate, Washington, DC.
    Dear Chair Craig and Ranking Member Wyden: Thank you for your 
letter of September 20, 2004, regarding the Lewis and Clark Mount Hood 
Wilderness Act. I appreciate the opportunity to respond to questions 
from Senator Gordon Smith, on behalf of the International Mountain 
Bicycling Association.
    1. There is document published by your association (IMBA) entitled 
``Natural Resource Impacts of Mountain Biking. `` I'd like to read a 
quote from that document:

        ``A body of empirical, scientific studies now indicates that 
        mountain biking is no more damaging than other forms of 
        recreation, including hiking . . . The wisdom of prohibiting 
        particular user groups in order to satisfy the desires of other 
        groups is a matter for politics rather than science.''

    With this in mind, do you believe that mountain bikers are more 
harmful to Mt. Hood than hikers or horseback riders who would still be 
allowed access to Wilderness Areas?
    No, IMBA is not aware of any evidence that would indicate that 
mountain bike access to trails in the Mount Hood region is more harmful 
than the impact of hiking or equestrian use. To the contrary, IMBA 
believes there is strong evidence to show that mountain bike impacts to 
trails and wildlife are similar to hiking and less than equestrian 
impacts. As Senator Smith correctly points out, IMBA's document 
``Natural Resource Impacts of Mountain Biking'' demonstrates that 
mountain biking is no more damaging than other forms of recreation, 
including hiking. While there are no specific studies for the Mount 
Hood region, studies of mountain bike impact in other areas are 
persuasive.
    Science demonstrates that all forms of outdoor recreation--
including bicycling, hiking, running, horseback riding, fishing, 
hunting, bird watching, and off-highway-vehicle travel--cause impacts 
to the environment. Trails deteriorate over time. Yet, to date, no 
scientific studies show that mountain bikers cause more wear to trails 
than other users.
    To the contrary, in 1994, John Wilson and Joseph Seney of Montana 
State University published ``Erosional Impacts of Hikers, Horses, 
Motorcycles and Off-Road Bicycles on Mountain Trails in Montana.'' 
Wilson and Seney found no statistically significant difference between 
measured bicycling and hiking effects. They did find that horses caused 
the most erosion of the trails, and that motorcycles traveling up 
wetted trails caused significant impact. Wilson and Seney suggested 
that precipitation will cause erosion even without human travel and 
this factor may significantly outweigh the effects of travel. Trail 
design, construction, and maintenance may be much more important 
factors in controlling erosion.
    In 1986 the Santa Clara County Parks and Recreation Department of 
northern California studied the erosional effects of bicycling on the 
Edwards Field Trail. The researcher, Christopher S. Crockett, observed 
minimal change in the visual trail characteristics in most cases. The 
data led the county parks department to open trails to mountain biking.
    In addition, no scientific studies indicate that bicycling causes 
more degradation of plants than hiking. Trails are places primarily 
devoid of vegetation, so for trail use in the center of existing paths, 
impacts to vegetation are not a concern. This issue is relevant with 
regard to widening of trails and travel off established trails.
    One study concluded that hiking and bicycling trample vegetation at 
equal rates. Eden Thurston and Richard Reader of the University of 
Guelph, Ontario, published ``Impacts of Experimentally Applied Mountain 
Biking and Hiking on Vegetation and Soil of a Deciduous Forest'' in 
2001, with three principal findings. First, impacts on vegetation and 
soil increased with biking and hiking activity. Second, the impacts of 
biking and hiking measured were not significantly different. Third, 
impacts did not extend beyond 30cm of the trail centerline.
    Based on these studies, IMBA believes that mountain biking is no 
more damaging than other forms of recreation, including hiking. 
Furthermore, we are confident that the study called for by the Mount 
Hood Pedalers Demonstration Experiment Area (HoodPDX) will show similar 
results to the studies mentioned above.
    2. IMBA 's official position on wilderness designations says that 
prohibition of mountain bikes in Wilderness Areas ``is not based on 
valid resource protection concerns. Under current regulations, IMBA 
cannot support the designation of additional Wilderness Areas where 
significant biking opportunities would be eliminated. ``
    How many miles of trail closure on Mount Hood would IMBA and its 
members tolerate before opposing this legislation?
    IMBA is unable to quantify this issue at this time. The true extent 
of the closures is not fully presented in the legislation or its 
supporting maps and background materials. We believe that the Forest 
Service is not aware of many trails in the Mount Hood National Forest. 
Furthermore, the maps accompanying this bill are inadequate for clear 
public analysis. Drawn in black and white and scaled too small, the 
maps obscure or do not depict critical topographic features and many of 
the trails at issue. The committee and the public need to have maps 
that clearly display relevant geographic features and impacted trails. 
While IMBA believes that the bill affects more than 200 miles of 
trails, we cannot say how many of those miles the mountain bike 
community would accept losing, or alternatively, tolerate before 
opposing the legislation. In addition, there are other issues to 
consider, not only the number or mileage of closed trails but their 
location, type, usage.
    Generally, IMBA believes that mountain bikers should have access to 
all trail miles because we reject the notion that trails need to be 
closed to bikes in order to protect lands. As I discussed in response 
to the previous question, mountain bike impacts on land and wildlife 
are very similar to hiking and equestrian impacts. Therefore, IMBA 
believes that mountain bikes should have access to the same areas as 
hikers and equestrians, subject to the discretion of local land 
managers to regulate the carrying capacity of any particular trail or 
trail system. Ideally, legislation passed by Congress would establish 
that trails are open to bikes unless closed, and the decision is left 
to the discretion of the relevant land manager based on an impact 
analysis and subject to adequate notice and opportunity to comment by 
interested stakeholders.
    3. Backpackers cite the need for solitude in their support for 
additional wilderness areas. Do mountain bikers also enjoy solitude in 
nature? And is solitude likely if current mountain biking use is 
concentrated in the mountain biking demonstration area (``Hood-PDX'')?
    Yes, mountain bikers value and enjoy solitude. As I mentioned in my 
testimony, all experienced trail users prefer narrower, singletrack 
trails that provide the most opportunity for solitude. Cyclists are no 
different. Most trail users want to experience a close connection to 
Nature. Singletrack provides this better than roads because it blends 
into the surrounding environment, disturbs much less ground, and is 
easier to maintain. The experience just isn't the same when you are 
walking or pedaling on an open, wide road. When one is moving slowly on 
singletrack, you feel connected to the natural world.
    Solitude will be the typical experience provided that access is not 
denied to the more than 200 miles of trail identified by IMBA. It is 
not clear that mountain biking will be concentrated or limited to the 
Mount Hood Pedalers Demonstration Experiment Area (HoodPDX), so I 
cannot say whether solitude will be diminished. This uncertainty is a 
product of the mapping and designation problems I identified in the 
previous question. Without clear maps we are unable to determine at 
this time, how many trail miles will be lost. We have been assured by 
the bill's proponents that a significant number of the trails on Mount 
Hood are not within the proposed Wilderness areas in the bill. If this 
is so, then concentration of mountain biking becomes less likely and 
the experience of solitude on the mountain is not likely to be 
diminished. It is absolutely critical however that most, if not all, of 
the more than 200 trail miles remain open in order to preserve this 
experience.
    4. What would be the impact of significant trail closures on local 
small businesses that rely on mountain bikers?
    The impact of trail closures on local small business that rely on 
mountain bikers is likely to be negative. Closure of trails to 
bicycling affects a significant number of local companies including 
manufacturers, distributors, bicycle dealers, and tourism-related 
businesses. A good example is Chris King Precision Components, which 
produces high performance mountain bike components with more than 60 
employees and $5 million in annual revenues. Chris King recently 
relocated its corporate headquarters and operations from California to 
Portland, Oregon because of the strong mountain bike community, local 
support for the sport, availability of local trails, and incredible 
natural environment.
    In Oregon, mountain biking is a popular sport with close to 400,000 
people participating last year (Outdoor Industry Foundation). The July 
2004 edition of Bike Magazine justly highlighted the fact that ``some 
of the finest singletrack in the mountain bike universe lie within an 
80-mile radius of Hood River, Oregon,'' as it noted that that ``tourist 
economy in Oregon and Washington depends heavily on the states' 
magnificent old-growth forests.'' A 1994 study of the economic impact 
of mountain biking conducted by Colorado State University at the 
premiere mountain biking destination, Moab, Utah, concluded that the 
bike trails in the Moab area produce approximately $200 in consumer 
spending per person, per trip. A recent study by the North Carolina 
Department of Transportation found that mountain biking brings at least 
$60 million a year to the Outer Banks of North Carolina; and more than 
1,400 jobs have been created to support the more than 40,000 people who 
bicycle in the region. A similar study found that bicycling contributes 
more than $1 billion annually to Colorado's economy. As another popular 
mountain bike destination, it seems reasonable to conclude that Mt. 
Hood and Oregon will enjoy a similar experience and positive economic 
impact.
    Since your hearing on September 14, I have spoken again with 
numerous cyclists and shop owners in Hood River and Portland, and with 
others on Mt. Hood, who have confirmed that Mt. Hood is increasingly 
becoming a popular destination location for mountain biking. Hundreds 
of visitors each year bring new money into the Oregon economy in a 
clean, environmentally friendly and sustainable industry. If the trails 
on Mount Hood are closed, these mountain bike visitors have told me 
they will not find other trails in the Mt. Hood area, but simply will 
not come to the area. Consequently, I am even more convinced now than 
when I sat before your committee, that the potential loss of more than 
200 miles of nationally recognized mountain bike trails will have a 
negative impact on the local Oregon economy.
    Thank you once again for the opportunity to offer comments on the 
Lewis and Clark Mount Hood Wilderness Act. I hope this information 
proves helpful to you.
            Respectfully,
                                           Chris DiStefano,
                                            MBA Board of Directors.
                                 ______
                                 
        Statement of Hon. F. Philip Carbullido, Chief Justice, 
                  Supreme Court of Guam, on H.R. 2400
    Mr. Chairman, for the record, my name is F. Philip Carbullido, and 
I am the Chief Justice of the Supreme Court of Guam. It is an honor to 
submit testimony to this distinguished Committee on a Bill that will 
have a profound impact on the advancement of the Territory of Guam.
    As Chief Justice of Guam, I have reflected upon the history of our 
nation's judiciary, and its role in the overall governmental structure. 
A basic and constant principle underlying the development of our system 
of government is a constitutionally created, co-equal and independent 
judiciary, something which we are lacking in the Territory of Guam. 
H.R. 2400 was conceived in response to the infirmities of the present 
language of the Organic Act.
    The Organic Act of Guam functions as Guam's constitution. While the 
Organic Act establishes the executive and legislative branches of the 
Government of Guam, the Act does not establish a judicial branch. 
Instead, in 1984, the United States Congress passed the Omnibus 
Territories Act, amending the Organic Act and giving the Guam 
legislature the authority to create the courts of Guam, including an 
appellate court. Under the present language of the Organic Act, the 
existence of Guam's judicial branch, the scope of its powers, and its 
organizational structure, have been subject to, and remains subject to 
persistent uncertainty and frequent legislative manipulation. Nowhere 
else in this nation does this occur. The present state of the law has 
fostered a peculiar and unprecedented system wherein our island's 
judicial branch is marked not by independence, but rather, by political 
influence.
    I offer several examples to illuminate the problems created under 
the present language of the Organic Act. In 1993, pursuant to language 
in the Organic Act granting the Guam Legislature the power to create an 
appellate court, local legislation was passed creating the Supreme 
Court of Guam and establishing that Court as the administrative head of 
all local courts (``1993 Law''). In 1998, another bill, re-structuring 
the judiciary, was passed by the Guam legislature. This 1998 Bill 
contained a rider which stripped the Supreme Court of its 
administrative [and supervisory] authority, which was previously 
granted by the 1993 Law. The 1998 Law remained in effect, until it was 
invalidated by
    the Ninth Circuit in 2001. The effect of the Ninth Circuit's 
decision was to revive the 1993 Law, once again completely 
restructuring the judiciary. Two years later, in 2003, the Legislature 
passed yet another law, again re-structuring the judicial branch of 
Guam. This 2003 legislation currently governs the judiciary of Guam.
    As is evident by the legislative actions over the past ten years, 
the simple fact is that under the present language of the Organic Act, 
the local legislature retains the power to control the internal 
structure of the judicial branch or even abolish the branch in its 
entirety.
    It is this condition that has necessitated the introduction of H.R. 
2400. The measure would firmly establish, within the Organic Act, 
Guam's judicial branch as a co-equal, independent branch, alongside the 
executive and legislative branches.
    I, with the concurrence of Guam's Judicial Council and other 
members of Guam's judiciary, recognize the clear need for judicial 
independence. We understand this need from a practical standpoint by 
virtue of our experience. From a more fundamental standpoint, we 
appreciate the role of the judicial branch in the American, tripartite 
system of government.
    Importantly, the judiciary of Guam is not alone in its conviction. 
All three branches of Guam's local government are unanimous in their 
support of the principle of an independent and co-equal judiciary.
    The Governor of Guam, Felix P. Camacho, recently sent a letter to 
our Delegate Madeleine Bordallo, stating his support for an amendment 
to the Organic Act as set forth in H.R. 2400. Governor Camacho stated: 
``I fully recognize that the effectiveness of our system of government 
both on the federal and local level, rests in checks and balances. To 
this end, I recognize that the judicial branch of our Territory, like 
our executive and legislative branches, must be, ``constitutionally'' 
established, or in our case, have an ``Organic'' existence with similar 
powers to govern, reorganize, and manage its branch with judicial 
independence founded upon our U.S. Constitution.\1\
---------------------------------------------------------------------------
    \1\ A copy of Governor Camacho's Letter dated May 7, 2004 has been 
retained in subcommittee records.
---------------------------------------------------------------------------
    In a similar vein, the Guam Legislature has passed a resolution, 
wherein it recognized that under the current language of the Organic 
Act, the local law creating the Supreme Court of Guam and organizing 
the judiciary of Guam can be amended by local legislation at any time. 
The Legislature further stated its belief, that ``absent a Guam 
constitution, an amendment to the Organic Act is needed to firmly 
establish the judicial branch of Guam, with the Supreme Court of Guam 
at its head, as a separate co-equal, and independent branch within the 
government of Guam.'' \2\
---------------------------------------------------------------------------
    \2\ A copy of the Guam Legislature's Resolution (LR 139) has been 
retained in subcommittee records.
---------------------------------------------------------------------------
    The unanimous endorsement by Guam's local leaders of a 
``constitutionally'' established independent judiciary finds support in 
national precedence spanning over 200 years. It is clear that the 
judicial branch of our Territory can neither effectively operate as a 
necessary check on the other two branches, nor properly fulfill its 
obligation to interpret the law, without a ``constitutional,'' or in 
this case, an ``Organic'' existence.
    The judiciary of Guam, with the support of the People of Guam, 
through their elected leaders in the executive and legislative branches 
of the government of Guam, come before you to advocate an amendment to 
what is, essentially, our constitution, to finally and permanently 
provide for an independent and co-equal judicial branch within the 
government of Guam.
    We respectfully request that you act in furtherance of this 
significant legislation, and that you act expeditiously. H.R. 2400 is 
important, and indeed vital, to the people of our Territory.
    Thank You Mr. Chairman. It has been a privilege to offer this 
testimony for your consideration.





</pre></body></html>
